<html>
<title> - THE FUTURE OF AIR TRAFFIC CONTROL MODERNIZATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                           THE FUTURE OF AIR
                     TRAFFIC CONTROL MODERNIZATION

=======================================================================

                                (110-40)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure












                     U.S. GOVERNMENT PRINTING OFFICE

35-922 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)




























                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)


                                 (iii)































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brantley, Thomas, President, Professional Airways Systems 
  Specialists....................................................    35
Bunce, Peter J., President and CEO, General Aviation 
  Manufacturers Association......................................    35
Dillingham, Ph.D., Gerald, Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................     7
Frederick-Recascino, Ph.D., Christina, Interim Provost and 
  Director of Research, Embry-Riddle Aeronautical University.....    35
Leader, Charles A., Director, Joint Planning and Development 
  Office, Next Generation Air Transportation System..............     7
Romanowski, Michael, Vice President of Civil Aviation, Aerospace 
  Industries Association.........................................    35
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     7
Sinha, Agam N., Senior Vice President and General Manager, Center 
  for Advanced Aviation System Development, Mitre................     7
Sturgell, Robert, Deputy Administrator and Interim Chief 
  Operating Officer, Air Traffic Organization, Federal Aviation 
  Administration.................................................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Braley, Hon. Bruce L., of Iowa...................................    47
Carnahan, Hon. Russ, of Missouri.................................    50
Mitchell, Hon. Harry E., of Arizona..............................    52
Salazar, Hon. John T., of Colorado...............................    56

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brantley, Tom....................................................    58
Bruce, Peter J...................................................    76
Dillingham, Ph.D., Gerald L......................................    84
Frederick-Recascino, Ph.D., Christina............................   135
Romanowski, Michael..............................................   139
Scovel III, Calvin L.............................................   146
Sinha, Agam N....................................................   166
Sturgell, Robert, and Leader, Charles, joint statement...........   173

                       SUBMISSION FOR THE RECORD

Brantley, Thomas, President, Professional Airways Systems 
  Specialists, response to questions from the Subcommittee.......    70
Dillingham, Ph.D., Gerald, Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office, response to 
  questions from the Subcommittee................................   116
Leader, Charles A., Director, Joint Planning and Development 
  Office, Next Generation Air Transportation System, response to 
  questions from the Subcommittee................................   189
Sturgell, Robert, Deputy Administrator and Interim Chief 
  Operating Officer, Air Traffic Organization, Federal Aviation 
  Administration, response to questions from the Subcommittee....   195

                        ADDITIONS TO THE RECORD

Airports Council International-North America, written statement..   203





[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




       HEARING ON THE FUTURE OF AIR TRAFFIC CONTROL MODERNIZATION

                              ----------                              


                        Wednesday, May 9, 2007,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [chairman of the subcommittee] presiding.
    Mr. Costello. The Subcommittee hearing will come to order. 
The Chair would ask all members, staff, and everyone in the 
room to turn off their electronic devices or put them on 
vibrate.
    The Subcommittee is meeting today to hear testimony on the 
future of the air traffic control modernization program. I will 
give my opening statement, recognize the Ranking Member, Mr. 
Petri, for his opening statement, call on other members for 
comments and remarks, and then we will get to our witnesses.
    I welcome everyone here this morning to our hearing on the 
future of the air traffic control modernization. A major part 
of the Administration's FAA reauthorization proposal is to 
overhaul and transform our ATC system.
    Some have suggested that the Administration's proposal puts 
the cart before the horse by emphasizing financing without 
fully explaining the Next Generation Air Transportation System. 
Today, the Administration will have the opportunity to explain 
its vision for the future.
    While I have differences with the Administration regarding 
financing, I agree that the ATC system must be modernized. The 
FAA's forecast that airlines are expected to carry more than 1 
billion passengers by 2015, increasing from approximately 740 
million in 2006. The Department of Transportation predicts up 
to a tripling of passengers, operations, and cargo by the year 
2025.
    At the same time, the increased use of regional jets, the 
emergence of low-cost and new carriers, more point-to-point 
service, and the anticipated influx of very light jets, as well 
as other new users such as unmanned aerial systems and 
commercial space vehicles, are placing a new and different type 
of stress on the system.
    Under the current system, controller workload, radio 
frequency, voice congestion, and the coverage and accuracy of 
ground-based navigational signals impose limitations on 
capacity. The NextGen plan that is under development will 
consist of new concepts that rely on satellite-based 
capabilities, data communication, information, and weather 
capabilities that will support strategic decisions and enhanced 
automation.
    While it is imperative that Congress provide the funding to 
make NextGen happen, NextGen is not just about financing. We 
have learned from the past that the NextGen system must evolve 
incrementally through sound contract management by the FAA, 
coupled with vigorous congressional oversight.
    Further, everyone should know that the major capital 
requirements for NextGen will not entirely happen during this 
reauthorization cycle. As I have stated in the past, the FAA is 
requesting less capital funding during the three years of its 
new proposal than the FAA requested in the first three years of 
its last proposal.
    Moreover, the Administration must get a better grasp on 
long-term NextGen cost. Earlier this year, the Department of 
Transportation's Inspector General reported that there are 
still unknowns regarding NextGen's costs which will depend on, 
among other things, performance requirements for new 
automation, weather initiatives, and the extent to which the 
FAA intends to consolidate facilities.
    The IG has reported that in the past the FAA's major 
acquisitions have experienced billions of dollars of cost 
growth and years of schedule delays directly due to overly 
ambitious plans, complex software development, changing 
requirements, and poor contract management. The IG has also 
stated that the FAA must articulate a strategy for how it will 
mitigate past problems that have led to massive cost growth.
    For many years, the Government Accountability Office has 
consistently reported that failing to involve air traffic 
controllers in the technology development process to resolve 
tricky human factor issues has led to costly rework and delays. 
The IG has noted that the need for focused human factors 
research has important safety implications. Common sense would 
suggest that the people that will be using and maintaining this 
new technology should be involved in its development. 
Therefore, I am concerned that the GAO is now reporting that no 
current controllers or technicians are involved at the more 
detailed planning levels for NextGen. I look forward to hearing 
from our witnesses on this issue this morning.
    In addition, it is clear that the Administration envisions 
a major role for the private sector in the development and 
implementation of NextGen. For example, the FAA intends to 
structure its automated dependent surveillance broadcast 
acquisition, which will be the primary ATC surveillance system 
for the entire National Airspace System as a service contract 
or lease. Further, while Congress debates whether to allow the 
FAA to charge user fees, the FAA is considering allowing its 
ADS-B vendor to charge fees for services. I think this approach 
has serious implications, and it is time for Congress to engage 
in this decision.
    With that, I want to welcome all of our witnesses here 
today, and before I recognize Mr. Petri, our Ranking Member, 
for his opening statement or comments, I ask unanimous consent 
to allow two weeks for all members to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by members and witnesses.
    Without objection, so ordered.
    At this time, the Chair recognizes our Ranking Member, Mr. 
Petri, for his opening statement or any comments that he may 
have.
    Mr. Petri. Thank you very much, Mr. Chairman.
    This Subcommittee first addressed the topic of today's 
hearing, air traffic control modernization, nearly a quarter 
century ago, during the first term of the Reagan 
Administration. Since then, the Federal Government has spent 
nearly $44 billion in taxpayer money on the quest to upgrade 
the Nation's air traffic control system.
    Until recently, the air traffic control modernization 
effort has been plagued by cost overruns, scheduling delays, 
and mismanagement. However, the FAA has vastly improved its 
track record over the last few years. I would like to commend 
the FAA Administrator Marion Blakey for her leadership and 
efforts to get the bulk of our air traffic control 
modernization programs back on time and on budget.
    Under the leadership of Administrator Blakey and the former 
Chief Operating Officer, Mr. Russell Chou, the air traffic 
organization has started to resemble the performance-based, 
value-driven organization that Congress envisaged. Both the GAO 
and the DOT Inspector General found that air traffic 
organization has made significant progress in meeting cost, 
schedule, and performance targets for its major air traffic 
control acquisition programs.
    However, if we fail to sustain this progress and make 
significant strides in modernizing our air traffic control 
system over the next decade, then I fear a meltdown of our 
Nation's air traffic control system is inevitable. Such a 
meltdown would cripple our Nation's economy, which stands to 
lose $30 billion annually due to people and products not 
reaching their destinations within the time periods that we 
expect currently.
    The need for air traffic control modernization is 
overwhelming. The FAA's recent forecast conference could not 
have made it any clearer: air transportation demand is growing 
and soon will be greater than today's system can handle.
    According to the FAA, domestic air passenger traffic will 
nearly double to 1 billion passengers annually by 2015 and 
swell to 1.5 billion passengers by 2025. It is a testament to 
the FAA's 50,000 employees that our air traffic control system 
has and continues to be the largest and the safest in the 
world. We must ensure that the system is modernized so that 
this record is continued.
    As we modernize, part of the benefit we expect will be the 
cost savings and cost avoidance associated with the closure of 
already outdated and redundant facilities. In light of 
political opposition to such closures, as evidenced by the 
reaction following FAA's proposal to consolidate certain radar 
stations, or TRACONs, I am interested in looking at the 
benefits of establishing a commission similar to the BRAC type 
process at the Department of Defense--which was set up by our 
colleague, Dick Armey, or at his suggestion some years ago--to 
evaluate and recommend closures based on the best efficiency 
and cost savings for the NAS.
    I look forward to hearing from today's witnesses on the 
current progress of the NextGen effort, as well as the plans 
for the future. Over the past six years, there were 11 
Subcommittee oversight hearings related to the FAA's NextGen 
effort. As this effort moves forward, we must continue this 
oversight on what is a very complicated but very necessary 
effort.
    So I look forward to working with you, Mr. Chairman, as 
modernization advances in the months and the years ahead, and, 
with that, I yield back my time.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I would like to 
associate myself with what both you and Mr. Petri said. I don't 
have a prepared statement, but I would like to say this to our 
people sharing with us at the table. Talk to us straight about 
what we really need. I hear all this talk about NextGen, but I 
haven't seen anything that would make me think that we have 
actually something that is moving, except we are talking about 
it. Everybody would agree that we have to modernize and upgrade 
and have more capacity. I think that is understandable, but I 
don't hear any proposal that would make it sound like we are 
actually at some step level of what we are going to put on the 
table.
    Also, I would hope that as you differentiate your 
responsibilities, do we have adequate funding; is it working? 
Is the trust fund in that bad a shape and is it adequate to do 
the things that we are talking about at this point based on 
what we know, or is there a shortfall? Are we trying to use all 
of this or are some people are advocating for doing everything 
they seem to be able to think of doing to advocate for the user 
fee. I think it is pretty clever what happened over in the 
Senate. Pretty clever, trying to separate the general aviation 
community, and I just don't want you to think that some of us 
haven't noticed that. I would hope we don't go down that slope, 
that we try to work out some feasible, reasonable, working 
together to maintain the safety and to keep the economy of our 
general aviation going, and not see situations where we just 
turn that major source of our economy in this Country down like 
we have seen it happen in other places around the world. So I 
hope you include that in some of your remarks.
    Thank you, Mr. Chairman.
    Mr. Costello. We thank you.
    The Chair, at this time, recognizes Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I will be brief, but I 
just want to go back some time. It is one of the few advantages 
of being older, you know.
    Back to 1956, when I was graduating from the University of 
California at Berkeley, I was elected to the Sigma Psi Honors 
Society. At the induction we had a speaker, a professor of 
transportation, who outlined why this Nation needed an air 
traffic control system to handle the transcontinental flights 
or the intercontinental flights. He pointed out very clearly 
and mathematically that, very likely, two heavily loaded 
airliners would collide in midair somewhere over this Country 
at some point in the next year, and in fact it happened. We all 
remember the crash over the Grand Canyon. Two major airliners 
went down with the loss of all lives. That was the beginning of 
our good national air traffic control system.
    I don't know why people tend not to react until the crisis 
has occurred, but this is a good example why we have to have an 
improved air traffic control system now, to avoid the tragedies 
of the future.
    I applaud the FAA for tackling this problem. I hope to give 
them all the support possible. I hope they can develop a good 
system that is workable for all classes of airplanes, at all 
times, at reasonable cost, and I hope we can achieve those 
objectives.
    With that, I will yield back.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Colorado, Mr. Salazar.
    Mr. Salazar. Thank you, Mr. Chairman.
    Over the past several months, we have had multiple hearings 
on FAA reauthorization. I would like to associate myself with 
Congressman Boswell's comments on the importance of general 
aviation and I believe the impact user fees would have on 
general aviation. I appreciate that we are holding this hearing 
today on the issue of future air traffic control modernization 
and transformation of the NextGen.
    Our Nation's air traffic management system must be 
sufficiently updated to meet future needs, and I believe the 
Administration has yet to provide concrete details on how 
exactly it proposes to get there. While we wait, we continue to 
have problems. Problems continue to arise and demand, I think, 
immediate attention.
    In Colorado, there has been a need to solve airspace 
surveillance issues now because we didn't have time to wait for 
the ADS to be implemented. The result was that the Colorado-
wide area multilateration system, which is funded by the State 
of Colorado, will be maintained by the FAA after installation. 
It solves our current problems for today, but it will be 
upgraded to solve the problems of tomorrow when ADS is 
functional and the aircraft are equipped to use this 
technology.
    The FAA should provide Congress with a comprehensive plan 
to determine what specifically the NextGen system will entail. 
Another instance of the FAA coming across as being, I believe, 
a little less than forthcoming, is with their poorly defined 
plan to realign, consolidate, co-locate, and close some of 
their facilities and services. I do appreciate the FAA looking 
to improve its cost control efforts, but I am concerned with 
some of their proposed changes and whether it would do more 
harm than good.
    I have had numerous conversations with the FAA on the 
matter of consolidating TRACONs. There have been rumors that 
the FAA intends to co-locate or consolidate the public TRACON 
either to Colorado Springs or Denver. I have also been informed 
that the FAA is considering decommissioning the VOR at 
Steamboat Springs. That is a very mountainous airport and I 
have used the VOR to land there several times. Not only would 
this reduce the approach options provided to pilots, but it 
prematurely removes VOR without first having a suitable GPS 
replacement.
    I can understand the desire to cut costs, but I have 
serious concerns, and I would hope that the panel today would 
address those issues. I look forward to the testimony today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. I thank you.
    The Chair now recognizes the gentlelady from California, 
Ms. Matsui.
    Ms. Matsui. Thank you, Chairman Costello and Ranking Member 
Petri, for holding this important hearing on the future of the 
Nation's air traffic control system, and thank you to today's 
witnesses for providing testimony.
    Everyone seems to agree that the current technology and 
infrastructure that makes up the air traffic control system 
will not be able to handle the surging growth that we are 
expecting the next decade and beyond. So modernization needs to 
happen and there is much at stake.
    If we don't get this right, our constituents are going to 
be waiting in more lines and sitting through more delays than 
they have ever had to before, and the aviation system will not 
be able to meet the Nation's demand. So this is a big challenge 
with very significant consequences. That is why we are talking 
about NextGen.
    There is significant reason to be wary of this effort, as I 
am sure will be discussed extensively today. The FAA has an 
unimpressive history of cost overruns, schedule slips, and 
program cancellations. We need to modernize the Nation's 
aviation system, but we need to do it in a smart and cost-
effective manner. We are in a tightly constrained fiscal 
environment, so we only get one shot at doing this right.
    The FAA and its partners have put forth some intriguing 
concepts that hold great potential to increase capacity and 
efficiency. I am excited about these ideas, but we must 
determine what is realistically achievable given the time line 
and fiscal constraints that we are facing.
    We are not going to be able to execute every great idea 
that our scientists and engineers come up with. We need to 
filter out what is pragmatic and realistic. We have certainty 
about the need to increase capacity and to modernize. We have 
much less certainty about how to do it.
    I understand that with an enterprise of this scale and 
magnitude, you are going to have setbacks and adjustments are 
going to be made. That is why it is important that we are 
pragmatic in planning this effort so we are not sitting here in 
five or ten years talking about how much money we wasted or how 
far behind schedule we are. This modernization is just too 
important for that to happen.
    I look forward to working with all my colleagues and all 
the agencies involved to make this modernization effort a 
success that transforms the Nation's aviation system for the 
21st century.
    With that, I would like to thank the witnesses for taking 
the time to be with us today. I look forward to your testimony.
    I yield back my time.
    Mr. Costello. Thank you.
    For final opening statement or remarks, and then we will go 
to our first panel of witnesses, the Chair recognizes the 
gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. I appreciate your 
and the Ranking Member holding this hearing.
    I am really very proud of our Nation's long history in 
aviation innovation. After completing his first pilot training 
class in 1924, Charles Lindbergh began flying a mail delivery 
route from Lambert-St. Louis Field, the airport that Chairman 
Costello and I use to go home on weekends still today. His 
famed aircraft, the Spirit of St. Louis, was named after the 
city that I represent.
    While I am proud of our Nation's aviation history, I 
recognize that significant changes to the National Airspace 
System are necessary to accommodate the increased demands from 
the system. NextGen, which the Joint Planning and Development 
Office is producing, will allow our aviation community to 
continue to grow and maintain its economic strength. However, 
it is important for JPDO to recognize that the multi-billion 
price tag on NextGen will require intense oversight and cost 
controls. I don't believe this Committee, or anyone in this 
Congress, will allow billions of taxpayer dollars to be 
improperly spent.
    The JPDO does not have a flawless track record. Though 
progress has been made, the GAO still classifies NextGen as 
high-risk. I assure you this Committee will be watching closely 
over NextGen. I look forward to hearing from you today and 
working with the Chairman and Ranking Member as we go forward. 
Thank you.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    At this time, we will hear from our first panel. I will do 
very brief introductions. Our first witness will be Mr. Robert 
``Bobby'' Sturgell, the Deputy Administrator and Interim Chief 
Operating Officer, Air Traffic Organization, Federal Aviation 
Administration; Mr. Charles Leader, the Director of the Joint 
Planning and Development Office, Next Generation Air 
Transportation System; Dr. Gerald Dillingham, the Director of 
Physical Infrastructure Issues, U.S. Government Accountability 
Office; the Honorable Calvin Scovel, the Inspector General for 
the U.S. Department of Transportation; and Dr. Agam Sinha, who 
is the Senior Vice President and General Manager for the Center 
for Advanced Aviation System Development.
    We would now ask all of our witnesses to summarize their 
statement in five minutes, if they possibly can. We will have 
your entire statement submitted and it will appear in the 
record.
    At this time, the Chair recognizes Mr. Sturgell.

TESTIMONY OF ROBERT STURGELL, DEPUTY ADMINISTRATOR AND INTERIM 
  CHIEF OPERATING OFFICER, AIR TRAFFIC ORGANIZATION, FEDERAL 
  AVIATION ADMINISTRATION; CHARLES A. LEADER, DIRECTOR, JOINT 
     PLANNING AND DEVELOPMENT OFFICE, NEXT GENERATION AIR 
  TRANSPORTATION SYSTEM; GERALD DILLINGHAM, PH.D., DIRECTOR, 
PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE; THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR GENERAL, 
 U.S. DEPARTMENT OF TRANSPORTATION; AGAM N. SINHA, SENIOR VICE 
  PRESIDENT AND GENERAL MANAGER, CENTER FOR ADVANCED AVIATION 
                   SYSTEM DEVELOPMENT, MITRE

    Mr. Sturgell. Good morning, Chairman Costello, Congressman 
Petri, members of the Subcommittee. I am Bobby Sturgell, the 
Deputy Administrator of the Federal Aviation Administration and 
the Interim Chief Operating Officer for the Air Traffic 
Organization. I appreciate including our written statement into 
the record and I am glad to be with you here today to discuss 
the topic that many have recognized is of utmost importance and 
urgency, that is, the FAA's plans to modernize and transform 
our air transportation system so that we are prepared to meet 
the significant traffic demands expected in the future.
    Mr. Chairman, our case for change is compelling. I know you 
know that civil aviation accounts for nearly $690 billion in 
direct and indirect contributions to the U.S. economy and is 
responsible for 10 million jobs and $343 billion in wages. No 
doubt, we all want these benefits to continue and improve, but 
our air transportation system is, in many ways, a victim of its 
own success.
    Even as we have created the safest, most efficient system 
in the world, our system is hitting the wall. Flight delays 
have increased each of the last three years and, as the summer 
travel season gets underway, we expect the problems to get 
worse; and these problems won't go away in the future.
    We are forecasting a billion passengers by the year 2015 
and we expect a doubling or possibly tripling of air traffic by 
the year 2025. Moreover, we have to anticipate the unique 
challenges that come with a new generation of air traffic 
vehicles, such as very light jets, unmanned aerial systems, and 
commercial space launches. The exact quantity and composition 
of these vehicles are not, however, fully predictable at this 
point.
    While all of this growth is exciting and good, it brings 
with it the problem of congestion. Congestion robs the family 
of precious time, it limits the freedom of our citizens, and it 
puts a drag on our increasingly global economy.
    The delay in dollars? We are estimating that commercial 
aviation could see an annual loss of $500 million for every 
minute of scheduled block time, the time which refers to that 
from gate-to-gate for the airlines.
    The cost to the whole country? Today's tab stands at $9.4 
billion a year due to commercial passenger delays, and that 
number could climb as high as $22 billion by the year 2022.
    Our current system simply isn't scalable to handle these 
challenges, this kind of growth. Research done by the FAA has 
shown that our current air traffic system, using that system, 
controllers could not handle a 25 percent increase in air 
traffic, which is the amount that we expect in the 2015 to 2017 
time frame. That is why we need the Next Generation Air 
Transportation System, a full-scale transformation that takes 
into account every phase of the process: air traffic control, 
airports, the environment, the military, and homeland security 
requirements.
    The NextGen system will be a much more automated and 
flexible system than the one of today. Navigation and 
surveillance will be more precise. Pilots and operators will 
know the location of other aircraft operating in the system. 
Air traffic control of individual airplanes will evolve into 
air traffic management and control by exception and aircraft 
flight paths will be trajectory-based to provide optimal 
routing.
    To implement this transformation, we are already moving 
forward with Automatic Dependent Surveillance-Broadcast (ADS-B) 
and System Wide Information Management (SWIM), two of NextGen's 
core backbone technologies.
    Of course, we recognize that these programs are only part 
of the process. NextGen encompasses many programs and 
components, all of which need to be properly integrated and 
aligned. That is why we are turning to a proven management 
vehicle, the Operational Evolution Partnership, the OEP, which 
we have been using for many years.
    In the past, the OEP successfully provided a midterm 
strategic road map for capacity increases that extended 10 
years into the future. The new OEP has an expanded scope, 
beyond just capacity, and will include strategic milestones 
through 2025 as we go forward with NextGen. The FAA will use 
the OEP to plan, integrate, and implement NextGen in 
partnership with the private industry.
    Charles Leader will discuss more about our efforts towards 
NextGen, so let me just close by saying that we are at a 
crossroads today. The system is at capacity and it must be 
transformed. If we fail to act, we will be left with gridlock 
in the skies. The world recognizes the problem. Europe is 
already moving ahead with SESAR, their version of NextGen, and 
they have the funding to do it. If we fail to act, the world 
will look to someone else for leadership, not us. Someone 
else's technologies and standards will pave the way if we 
don't. By funding and building NextGen, we can keep America at 
the forefront and avoid gridlock.
    Thank you, Mr. Chairman. I look forward to answering 
questions from the Committee.
    Mr. Costello. Thank you.
    The Chair now recognizes Mr. Leader.
    Mr. Leader. Good morning, Chairman Costello, Congressman 
Petri, and members of the Subcommittee. My name is Charles 
Leader, and I am the Director of the multi-agency Joint 
Planning and Development Office. I appreciate accepting the 
written comments into the record.
    I think you will agree that the United States has the 
safest and most efficient air traffic control system in the 
world. It handles a staggering amount of traffic each day that 
includes passenger flights, air cargo, military operations, 
unmanned aerial vehicles, and space launches.
    But as capable as it is, we are already seeing the limits 
of the current system. Delays and cancellations are growing, 
and unless we begin to transform the system now, the problems 
are only going to get worse. The issues concerning the future 
capacity and flexibility of the national air transportation 
system are matters that the House and this Committee understand 
very well.
    In 2003, Vision 100, the FAA reauthorization, chartered the 
Next Generation Air Transportation System Initiative and 
established the Joint Planning and Development Office. NextGen, 
as envisioned by Congress, is a steady, deliberate, and highly 
collaborative undertaking aimed at the long-term transformation 
of our national air transportation system. It is a 
transformation which I am pleased to say is already underway.
    NextGen, while representing a continuum of research, 
investment, and implementation activities, can be more easily 
explained if it is broken out into its three major phases. Each 
one represents a key period in NextGen's development.
    The first phase focuses on the development and 
implementation of certain key NextGen foundational technologies 
and capabilities. These initiatives represent our current 
programs; they are the foundation. This phase also includes the 
essential research and development needed to support the future 
development of NextGen.
    The second phase builds on this foundation to begin 
critical implementation of NextGen capabilities. This is where 
many aircraft in the fleet will begin to operate using onboard 
NextGen tools. This will allow greater expansion of the RNP/
Area Nav capabilities, net-enabled weather, advanced data 
communications, and the development of the critical 
infrastructure to support Trajectory-Based Operations.
    The third phase will be a maturation of our core NextGen 
capabilities into an operational nationwide system. This is 
where the aviation services are managed and operated in a way 
that achieves the NextGen transformation across the entire 
system.
    Implementation of NextGen has already begin. Two programs, 
both foundational technologies, are critical in this first 
phase of NextGen and were mentioned by the Deputy 
Administrator. They are the Automatic Dependent Surveillance-
Broadcast and System Wide Information Management Systems. Both 
of these programs are funded and already underway. ADS-B relies 
on GPS and is critical in developing NextGen's satellite-based 
navigation and control capabilities. SWIM is developing our key 
networking capabilities and will establish the critical 
networking infrastructure.
    I want to make a point about SWIM and network enabled 
operations. The Department of Defense, Homeland Security, and 
the FAA have each contributed $5 million this year to fund the 
real-time demonstration of this capability. Each of these 
programs and the capabilities they represent are essential in 
beginning the transformation of our current air traffic control 
system from one that relies on voice communication and ground-
based surveillance to one that is satellite-based, network-
enabled, and uses advanced digital capabilities.
    By its very nature, this kind of initiative needs to use a 
portfolio-based approach. In other words, the approach has to 
be one that allows the JPDO to integrate a wide range of 
research initiatives and investments. That is why some of the 
most important products of the Joint Planning and Development 
Office have been its three key planning documents: the Concept 
of Operations, which went out for final review last month; the 
Enterprise Architecture, which will be released next month; and 
the Integrated Work Plan, which will be released for comment in 
July.
    I have copies with me of these documents to demonstrate 
that they are real and substantial in the detail in which they 
approach the future.
    The JPDO was developing NextGen by carefully developing 
data and using the appropriate models to evaluate the benefits 
resulting from this investment. If carefully managed, the 
NextGen program will bring tremendous benefit to our Nation.
    I look forward to answering the Subcommittee's questions. 
Thank you.
    Mr. Costello. Thank you.
    The Chair now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Chairman Costello, Mr. Petri, 
members of the Subcommittee.
    My statement today discusses the studies that we have 
underway for this Subcommittee on FAA's modernization program 
for the current air traffic control system and JPDO's efforts 
that are aimed at transformation to the future air traffic 
control system.
    With regard to the current modernization program, during 
the last few years FAA has made significant progress in 
implementing business management practices in acquiring ATC 
systems. Our work has shown that FAA has also improved the 
management and operational efficiency of the current system 
through cost savings, outsourcing, and consolidation. When 
compared to the years before the establishment of the ATO, 
these are significant achievements for the FAA.
    We view these accomplishments as positive, but not 
necessarily sufficient for the agency to effectively manage the 
transformation to NextGen. We continue to keep the 
modernization program on our list of high-risk programs. We 
believe that additional work needs to be done to fully address 
past cost, schedule, and performance problems that FAA 
previously experienced in acquiring systems, as well as to 
institutionalize those processes that caused the recent 
turnaround in the program.
    FAA's immediate challenge is filling two key leadership 
positions. The Administrator's term ends in September and the 
Chief Operating Office of the ATO left in February. This means 
that, within the next six months, FAA could have vacancies or 
acting officials in positions that for the last five years were 
occupied by its most significant change agents.
    With regard to the future ATC systems, a near-term 
challenge is to determine whether FAA has the technical and 
contract management expertise that will be required to 
implement the numerous complex systems that will be a part of 
the transformation to NextGen. To the extent necessary, 
personnel and skill sets that are not available within the 
agency must be acquired in a relatively short time, since the 
acquisition of NextGen technologies has already begun.
    Another near-term challenge is to identify which 
organizations will fund and conduct the R&D and demonstration 
work that, prior to restructuring of its aeronautical research 
portfolio, had been conducted by NASA. FAA's R&D Advisory 
Committee has estimated that it will cost nearly $100 million 
annually in additional funding and delay NextGen by five years 
for FAA to develop the necessary infrastructure and assume the 
previous NASA R&D.
    During the course of our reviews, we also heard a 
considerable number of concerns from stakeholders about the 
productivity and pace of JPDO efforts. To its credit, JPDO 
officials are currently implementing changes in structure and 
operations at the JPDO that are intended to improve the 
effectiveness of the organization.
    Although JPDO has made some progress in developing its key 
planning documents, including the Concept of Operations, 
Enterprise Architecture, and an Integrated Work Plan, some of 
these documents are nearly a year behind schedule. If this kind 
of schedule slippage continues, it will become increasingly 
difficult for JPDO to maintain its credibility and the 
participation of the aviation community.
    Our work has also identified some organizational issues 
that, if not addressed, could seriously jeopardize JPDO's 
chances of success. As we told this Committee last year, we 
believe that, because JPDO lacks authority over the key human 
and technological resources of its partner agencies, 
institutionalizing the collaborative process would be critical 
to JPDO's success. JPDO has been working for two years to 
establish a Memorandum of Understanding which would define the 
roles and responsibilities of the partner agencies. To date, 
the Memorandum has been signed by only three of the partner 
agencies.
    The frequency of leadership turnover at JPDO and the NGATS 
Institute has also raised concerns about the stability of the 
organization and the future of the initiative. During its three 
years of existence, JPDO has had three directors, and there 
have been two directors of the NGATS Institute. I believe that 
JPDO must immediately identify and address the factors that 
have contributed to the frequent turnover its senior 
management.
    Additionally, the Senior Policy Committee, which was 
established to provide high level advice and policy guidance to 
JPDO, has met just three times over the last three years, and 
not at all during the past year. JPDO also has a continuing 
challenge in ensuring involvement of all key stakeholders. As 
we testified last year, active air traffic controllers and 
technicians are not currently involved in NextGen planning.
    Mr. Chairman and members of the Subcommittee, in closing, I 
want to emphasize that ATO and JPDO have both achieved much in 
their short existence, but both organizations are facing some 
very serious challenges. Meeting these challenges is time 
critical and will require the joint efforts of the Congress, 
the partner agencies, and the private sector.
    Thank you.
    Mr. Costello. We thank you, Dr. Dillingham.
    Mr. Scovel.
    Mr. Scovel. Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee, we appreciate the opportunity to testify on 
progress to date with the JPDO and efforts to develop NextGen.
    While there is considerable controversy about how best to 
finance FAA, there is almost universal agreement on the need to 
modernize the NAS to meet the forecasted demand for air travel.
    Mr. Chairman, our work shows that the transition to NextGen 
is a complex, high-risk effort. Much work remains to align 
agency budgets to make the JPDO an effective multi-agency 
vehicle, and actions are needed to help FAA successfully 
deliver new capabilities.
    Today I will cover three major areas; the first is progress 
and problems with ongoing modernization projects.
    At the request of this Subcommittee, we are tracking 18 
projects with a combined cost of $17 billion. We do not see the 
massive cost growth seen in the past. This is due to FAA's 
effort to re-baseline efforts and segment investment decisions. 
However, there are projects, such as FAA's Telecommunications 
Infrastructure Program, that are at risk of not achieving 
expected benefits.
    Second, JPDO's progress to date in coordinating and 
aligning research. In our recent report, we found that there 
was considerable coordination among JPDO participating 
agencies, but little or no alignment of R&D plans, and this is 
still the case today. We also found that the JPDO's integrated 
product team leaders had no authority to commit parent agency 
resources. We concluded that a more product-driven approach was 
needed.
    To its credit, the JPDO has announced a number of changes 
to be more product-driven. This includes revamping its 
integrated product teams as working groups. There are four key 
mechanisms for alignment that are in progress, but they need to 
be completed.
    First, NextGen's enterprise architecture. The JPDO's 
efforts to develop an overall blueprint for NextGen will help 
set goals and support investment decisions. However, the 
architecture documents we have reviewed to date lack sufficient 
detail to support investment decisions. This is very much a 
work in progress.
    Second, NextGen's R&D plan. The JPDO does not yet have an 
R&D plan that can guide various agency research efforts over 
the next several years. It expected to publish such a plan this 
summer.
    Third, NextGen's memorandum of understanding, or MOU. For 
more than a year, the JPDO has been working to reach agreement 
on an MOU. To date, this agreement has not been signed by all 
participating agencies.
    Fourth, NextGen's Integrated Budget document. The JPDO is 
working with OMB to develop an integrated budget that provides 
a single business case for NextGen efforts. This is expected to 
be complete in time for the fiscal year 2009 budget cycle.
    Finally, there are actions needed to reduce risk and help 
shift from planning to actual implementation.
    Action item one: FAA needs to develop realistic NextGen 
cost estimates and quantify expected benefits. FAA's current 
estimates suggest that the Agency will require $15.4 billion 
for capital projects from fiscal year 2008 to fiscal year 2012. 
This includes $4.6 billion for NextGen initiatives.
    There are considerable unknowns with respect to performance 
requirements for new automation systems and data link 
communications, to key cost drivers. Also, work remains to set 
transition benchmarks for when new procedures, new ground 
systems, and aircraft need to be equipped to realize benefits. 
Industry has asked FAA for a service road map that specifies 
when aircraft need to be equipped and what benefits will be 
obtained.
    Action item two: FAA and the JPDO need to develop 
approaches for risk mitigation and systems integration. The 
central issue focuses on what will be done differently from 
past modernization efforts with NextGen initiatives.
    Action item three: FAA needs to review ongoing 
modernization projects and make necessary cost, schedule, and 
performance adjustments. This is critical because NextGen 
planning documents suggest that billions of dollars will be 
needed to adjust ongoing programs like ERAM.
    Action item four: FAA needs to develop a strategy for 
technology transfer. This is important for the JPDO because the 
law envisions new capabilities developed by other Federal 
agencies or the private sector being transitioned into NAS. We 
recommended that the JPDO use technology readiness levels to 
help assess maturity of systems and reduce development times 
and costs.
    Action item five: FAA needs to conduct sufficient human 
factors research to safely support anticipated NextGen changes. 
History has shown that insufficient attention to human factors 
can increase the cost of acquisition and delay much needed 
benefits. FAA understands the importance of these items and is 
in the process of developing a plan that identifies roles and 
responsibilities for human factors work. Given the scope of 
changes envisioned, this remains an important watch item for 
the Committee.
    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions you may have.
    Mr. Costello. Thank you.
    The Chair recognizes Dr. Sinha.
    Mr. Sinha. Good morning, Chairman Costello, Congressman 
Petri and Members of the Subcommittee. Thank you for inviting 
me to participate in today's hearing on the future of air 
traffic control modernization. I appreciate the inclusion of 
the full testimony in the record.
    We all remember the summer of 2000, when delays in the 
system were at a very high level and were the subject of 
frequent stories in the popular press and on the evening news.
    The impact of unfortunate events of September 11, 2001 led 
to lower demand levels, and during the next few years there was 
a significant reduction in delays. However, demand has 
returned; it is at or above where it was in 2000 in many 
locations, and so are delays. Total delays in the National 
Airspace System, the NAS, were 9 percent higher in 2006 than in 
2000, and 2007 is worse. Through April, total delays system-
wide are 12 percent higher than in the corresponding period in 
2006, and nearly 75 percent of all airport delays occur at just 
7 airports: Chicago O'Hare, Newark, Atlanta Hartsfield, New 
York LaGuardia, New York JFK, Philadelphia, and Houston.
    There have been significant improvements in the National 
Airspace System since 2000. In addition to several new runways, 
I will point to new procedures such as Area Navigation, or 
RNAV, departures at Atlanta that are saving users $30 million 
to $40 million annually today. These RNAV procedures are based 
on the ability of the aircraft to navigate prescribed paths 
accurately and reliably.
    The next level in this process is called Required 
Navigation Performance, or RNP, procedures, which is one of the 
key elements of the future system. RNP allows aircraft to fly 
even more precise paths with assurance. In Alaska, RNP 
procedures are used today to fly instrument approaches safely 
in some of the most challenging geographical terrains. These 
just illustrate some of the improvements since 2000.
    A MITRE study for the FAA showed that the growth in air 
traffic demand is projected to lead to a doubling of delays at 
the Nation's busiest airports by 2015, compared to 2000, if 
none of the planned improvements are made to the NAS. Currently 
planned improvements, however, are projected to maintain 
average delays nationwide at 2000 levels. However, delays at 
many key congested locations across the NAS will continue to be 
a challenge, such as in the northeast corridor, the New York 
area, Philadelphia area, San Francisco, and Los Angeles.
    The JPDO has identified the NextGen capabilities beyond 
those in current FAA plans and budgets and the research 
required to help them. While some of the operational 
capabilities needed for NextGen require research, the good news 
is that the fundamental technologies and procedures--for 
example, satellite navigation, Automatic Dependent 
Surveillance-Broadcast, air-to-ground data link, and RNP 
procedures--are known and are available to build a scalable 
system that can help mitigate congestion in the mid-term (circa 
2015) and be a stepping stone to achieve NextGen capabilities.
    FAA and MITRE have developed and conducted human-in-the-
loop experiments of a portfolio of NAS improvements of 
particular note, targeted around the middle of the next decade 
and termed Performance-based Air Traffic Management. The idea 
behind this concept is to start changing the roles of flow 
managers, controllers, aircraft operators, flight planners, and 
dispatchers. It will require additional automation capabilities 
in the ground system, new avionics capabilities in the 
aircraft, air-ground data communications, and common 
situational awareness such as that provided by System Wide 
Information Management.
    A key element of the challenges of implementing operational 
improvements on the road to NextGen is that the implementation 
must be done from a portfolio perspective (i.e., all the 
necessary components must be in place). For example, air-ground 
communications is a key element of using the automation 
capabilities of the aircraft and the ground system.
    The evolution of the NAS must not focus exclusively on FAA 
ground system capabilities. The future NAS needs to consider 
and capitalize on the role that the aircraft can play and the 
capabilities it can provide. Air-ground data communications 
capabilities can permit ground automation systems to 
communicate with onboard flight management systems and can 
reduce controller and pilot workload. Improved navigation and 
flight management systems can enable aircraft to fly with 
greater precision and can increase airport, terminal area, and 
en route airspace capacity. Advanced cockpit displays and 
automation aids may permit aircraft to separate themselves from 
one another safely and efficiently, possibly at closer 
separations.
    As the JPDO and FAA, together with their government 
partners, continue to develop the necessary details of the 2025 
NextGen concept of operations, it is important for the aviation 
community to move ahead now with the implementation of the 
known fundamental technologies and procedures. This needs to be 
truly a community effort because it requires changes in 
aircraft and air traffic systems together with procedures and 
airspace changes. Only through moving ahead now can we meet the 
challenges of the mid-term and be well on our way to having the 
full capabilities of NextGen by 2025.
    Mr. Chairman, this concludes my summary. I would be happy 
to answer any questions that the Committee may have.
    Mr. Costello. We thank you for your testimony.
    I am going to ask a few questions and then call on other 
members as well.
    Mr. Leader, in your testimony you indicate that the 
Enterprise Architecture will be completed and released next 
month. Is that correct?
    Mr. Leader. Yes, sir, that is correct.
    Mr. Costello. You have heard Dr. Dillingham testify, both 
in his written testimony and what he testified to today, that 
many of the reports that JPDO promised to deliver were at least 
a year behind in many cases. That, of course, is a concern, but 
my concern is more not so much with delay, but it is how 
comprehensive will the Enterprise Architecture be. In other 
words, you heard the IG's testimony. I have his written 
testimony in front of me where he says the architecture 
documents we have reviewed to date are lacking sufficient 
detail to support capital investment decisions and that the 
JPDO expects to complete another version this month.
    So my first question is what Mr. Scovel testified to, what 
he has seen so far it would not justify or support capital 
investment decisions. What we are going to receive next month, 
will that change his opinion and, in fact, will it be in detail 
to the point where we will know what we are getting and where 
we are going?
    Mr. Leader. We believe that it will, sir, that it will be 
of sufficient detail.
    Mr. Costello. What do we expect to receive in this 
Enterprise Architecture report that Mr. Scovel has not seen up 
to this point?
    Mr. Leader. I am not aware at this time, sir, exactly what 
version of the Enterprise Architecture he has most recently 
reviewed.
    Mr. Costello. Mr. Scovel, would you answer that, please?
    Mr. Scovel. We have reviewed several versions of the 
Enterprise Architecture Plan, sir, and it is our conclusion 
that, as our statement indicates, it does lack sufficient 
detail. It is very much a template, a plug-in-the-box matrix. 
What we would prefer to see is a linking of the Enterprise 
Architecture Plan with the R&D plan. Once the R&D plan is made 
known as well, I think then the Congress will have a better 
idea of what some of the cost factors may be, and I know that 
is of ultimate concern to this Committee.
    Mr. Costello. And the R&D that Mr. Scovel refers to, is 
that the road map that you have talked about?
    Mr. Leader. Yes, sir. We call it the Integrated Work Plan, 
and I believe that it more accurately serves the purpose that 
the Inspector General is seeking than does the Enterprise 
Architecture.
    Mr. Costello. And we are going to get the Enterprise 
Architecture next month and we are going to get this other 
document when?
    Mr. Leader. Well, sir, to review the time line, the 
Enterprise Architecture will be released on June 23rd, the 
updated Concept of Operations will be released on June 1st, and 
the initial baseline draft of the Integrated Work Place will be 
released on July 31st for review within the community.
    Mr. Costello. So by the end of July, both the industry, the 
Congress, and everyone should have a clearly defined plan of 
what the FAA intends to build and how they intend to build it?
    Mr. Leader. Yes, sir, what constitutes the Next Generation 
system.
    Mr. Costello. And will it in fact define both time 
requirements, cost, and other scenarios concerning 
implementation?
    Mr. Leader. Yes, sir, to the extent that we can do that 
now. The fidelity is obviously much greater in the first three 
to five years than it is in the twentieth year.
    Mr. Costello. You have heard Dr. Dillingham testify today, 
and also has testified before this Subcommittee in the past, 
and he has made points about the air traffic controllers and 
technicians not being involved in the working groups. You have 
heard me mention in my opening statement that it is common 
sense to involve those who are going to be running the system 
and working the system in making decisions at the early stage, 
before you lay out the plan. Tell me why the controllers and 
the technicians have not been at the table in working groups to 
review as we are going along and to give their input, as 
opposed to, what I understand, they are called in from time to 
time to give their opinion.
    Mr. Leader. We believe, sir, that controller input has been 
sufficient to----
    Mr. Costello. That wasn't my question. My question was why 
are they not at the table like everyone else, in the working 
group. I understand they are called in from to time and 
``consulted.'' If they are going to run the system and work on 
the system, why aren't they a part of designing the system?
    Mr. Sturgell?
    Mr. Sturgell. Sure. Mr. Chairman, I just want to talk about 
this broadly. We do value----
    Mr. Costello. And I want to talk about it specifically.
    Mr. Sturgell. And I will get specific. Yes, sir. Yes, sir.
    We do routinely involve controllers and technicians as 
subject matter experts on projects and we know that user 
involvement is critical to the air traffic system today and as 
well as to the NextGen efforts. NATCA, the air traffic 
controllers union, currently has a seat on both our ATMAC and 
ATPAC advisory committees, which are air traffic management and 
air traffic procedures advisory committees. We are very pleased 
that the new president has indicated that he would like to 
participate as a member of the Institute Management Council 
with the JPDO, and he has also indicated an interest for 
controllers to potentially be co-leads on these working groups, 
and Charlie can talk more about how the industry plans to 
select co-leads.
    I would also say, you know, specifically, there are some 
examples at headquarters. We have 15 certified professional 
controllers on three working groups for the en route automation 
program. Places like Houston Center we have three certified 
professional controllers on the Houston airport airspace design 
project. Salt Lake City, we have got one full-time, four part-
time, again on ERAM and four on TMA. So there is active 
involvement with the controllers, both controllers and NATCA 
itself.
    As far as the OEP, NATCA does have a seat on the OEP. They 
have not been at it in recent meetings. I would welcome them 
back and I would welcome adding PASS to the OEP associates team 
in a similar capacity, as having a representative seat, because 
we do intend to use that as the implementation process as we go 
forward, just the way we have used it in the past for capacity 
projects.
    Mr. Costello. The other issue that I want to touch on as 
well--I have several other questions, but I will go to other 
members and then come back.
    For Mr. Leader and for you, maybe Mr. Sturgell, Dr. 
Dillingham again--and you heard Mr. Scovel point out about the 
partnerships trying to bring agencies that are involved, and 
you have been working on this for two years and only have, I 
guess, a commitment out of three agencies. Can you tell me is 
that ongoing, is it progressing? Where are we involving other 
agencies?
    Mr. Leader. Well, sir, it is my understanding that within 
Department of Homeland Security, that earlier this week the 
Memorandum of Agreement was forwarded from the General 
Counsel's Office to the Deputy Secretary's Office for 
signature. It is my understanding that in the Department of 
Defense is it likely to be signed this month, upon official 
appointment of the Air Force as the executive agent to handle 
NextGen issues within the Department of Defense.
    Mr. Costello. Mr. Scovel, you indicate in your testimony 
that the FAA needs to articulate a strategy as to how to 
mitigate past problems that led to massive cost overruns and 
unanticipated costs. I would like you to explain and elaborate 
a little bit more on that, if you will.
    Mr. Scovel. Thank you, Mr. Chairman. I think our view here 
rests on the fundamental necessity for FAA and the JPDO to 
determine what skill set mix will best position the JPDO in the 
NextGen effort in order to solve problems that have been 
identified with past modernization programs. Our exhibit in 
this regard would be the WAAS program, I think, where the 
program was conceived and laid out initially in 1998 for a cost 
of roughly $824 million. Due to problems with identifying what 
level of skill sets and the degree of technical proficiency 
would be needed in order to certify that system as safe, FAA 
reached that conclusion late and decided it needed to resort to 
academic and industry experts because it didn't have those 
skills in-house.
    As a result, we now face a situation with WAAS, which was 
supposed to be completed in 2001, where the program is still 
ongoing. It may be completed next year. The total cost has now 
risen to $3.3 billion. That is a program, sir, where FAA wasn't 
able initially to determine what skill set would actually be 
needed, and it was a critical one when it came to certification 
for safety.
    There will be similar situations, perhaps not specifying 
certification, but where JPDO and FAA will need to identify 
from the beginning what skill sets will be needed to see a 
program through to completion. That would be our fundamental 
take-away point on that one, sir.
    Mr. Costello. It looks to me like you want to respond, Mr. 
Sturgell.
    Mr. Sturgell. Yes, sir, Mr. Chairman. We are in the process 
now of contracting with the NAPA to have them provide us an 
assessment of the appropriate skill set and mix we need as we 
go forward with NextGen.
    I would also like to point out that we have made 
significant progress in controlling our capital programs. I 
think one of the things we are trying to do as we go forward 
with NextGen is to really settle on the development issues, do 
the proper amount of demonstrations, and mature a program to a 
much greater degree than we had done in the past when we 
started programs before development, etc., determine how much 
it was going to be, and then ran into problems early on which 
escalated costs.
    So I think that will help. I think segmenting programs has 
helped. We are doing a lot on the training side with our 
program managers and, you know, we still have work to do to 
keep improving this process.
    Mr. Costello. The Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you.
    I have a couple questions. First, Mr. Sturgell, could you 
describe how the implementation of NextGen will affect service 
and the accessibility of the system to small communities and 
airports?
    Mr. Sturgell. I think the NextGen system is going to be a 
great value to small community airports and to the general 
aviation community as a whole. One of the current technologies 
that we see as part of NextGen is WAAS, the Wide Area 
Augmentation System. I mean, there are, I believe, over 4,000 
airplanes now equipped with that system. We are putting 300 
approaches a year, and all of those, or the majority of those 
approaches are going after airports that generally serve 
smaller areas and that don't have precision landing capability 
today.
    Mr. Petri. Thank you.
    In his testimony,--I think I would like both Mr. Dillingham 
and you to respond--Mr. Dillingham expressed concern about 
turnover of personnel in the past and how that could affect the 
progress going forward. Could you comment on that and what, if 
anything, can be done to minimize that problem?
    Mr. Sturgell. Well, turnover is always a concern. I have 
worked with the Administrator now for five years. I think she 
has done a tremendous job at the agency. Russ Chew is a good 
friend and did a great job as well, and I think has actually 
helped us attract a lot of interest into the position and the 
ability for great candidates to come and want to be part of the 
FAA, want to be part of this transformation. We also have very, 
very capable leaders throughout the organization, one of them 
sitting to my left today, the vice presidents of the Air 
Traffic Organization, all very capable, senior executives, 
seasoned, know the business well.
    So our focus has been to integrate the processes and 
improvements into the culture at the FAA so that, regardless of 
where we are in the leadership at the top ranks, things like 
cost-effectiveness, benefit-cost analysis, proper planning are 
all ingrained at the agency.
    Mr. Dillingham. Mr. Petri, I agree with what Mr. Sturgell 
said, but clearly when you have had a situation where you have 
been in existence three years and you have had three different 
directors, as in the JPDO, and when the NGATS Institute has 
been formed for about three to four years and you have had two 
directors at this point, our concern is credibility, as well as 
leadership. If you expect the industry to send the best and the 
brightest to work on this very complicated and important 
initiative, I think they would be interested in the stability 
of the leadership and the organization.
    We think that, in addition to that, it is true that there 
is leadership below the senior management level, but at the 
same time directions do come from the top. The point that we 
made is that we have a situation that is developing where the 
leaders of the change that we are pointing to in terms of 
progress for FAA--Mr. Chew, Administrator Blakey--those people 
will be gone and, because of the calendar, we may have even a 
different Secretary of Transportation. All the leaders in this 
area are going to possibly be changing, and we are at a 
critical point. This is the point where we move from sort of 
planning to implementation. So we think that, one, as far as 
the Institute is concerned, where private sector people are 
being involved, we need to find out why the turnover. We need 
to find out why the turnover at JPDO so that we can prevent 
that from just continuing and having a revolving door.
    Mr. Petri. Thank you. That is an area that obviously 
requires further work.
    One last question during my time to both Mr. Dillingham and 
Mr. Scovel. It may have been covered a little bit by some other 
testimony, and it is having to do with the wide range of 
estimates of cost of the program. I think they vary between $15 
billion and $22 billion for the infrastructure and $14 billion 
to $20 billion for the avionics equipment. I guess we are going 
to get a more precise road map shortly, but could you comment 
on that? Is that an unusual range or should that be a red flag?
    Mr. Dillingham. Mr. Petri, from our perspective, we think 
that when you are talking about a total range of $13 billion, 
that is a pretty wide range. We think that when the planning 
documents are final, we would hope that there would be a better 
idea of what the actual costs would be, and particularly, as 
Mr. Leader has said, in the near term a much finer point would 
be put on the cost of NextGen.
    Mr. Scovel. Mr. Petri, we think NextGen expenses between 
this year and 2012 are fairly well defined. With the need to 
fund ADS-B and SWIM and the $4.6 billion total for these fiscal 
years that FAA intends to request, we think those are fairly 
certain. Beyond 2012, however, we see considerable murkiness 
both in terms of the cost to industry in order to equip to take 
advantage of NextGen and also the cost to FAA and the 
Government on its side of the equation.
    As we have seen in past modernizations with FAA, costs can 
escalate; certainly, schedules can slip. We think for those 
reasons, as well as the rest of the financing picture, that a 
wide range, as has been suggested by FAA, is probably the best 
we can do at this point, and until we are closer to 2012 and 
get a better feel for how JPDO's research and development plan 
is progressing, we probably can't do any better than what we 
have.
    Mr. Costello. Thank you.
    The Chair recognizes the gentleman from Missouri, Mr. 
Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and thank you to the 
panel here today. I had a couple of questions, and I will try 
to get through these quickly.
    One of the cornerstones of NextGen appears to be data 
communications, and this technology would replace much of the 
voice communication system between controllers and pilots, but 
it appears likely to decrease the controllers' workload. But at 
our March 13th hearing, FAA Administrator Blakey told me, in 
response to a question, that the controller workforce would not 
be decreased after implementation of NextGen. My question for 
Mr. Sturgell is how can the FAA take a position that the 
controller workforce would not be reduced if their workload 
appears that it would be reduced?
    Mr. Sturgell. I would just say two things. First, we have a 
10-year controller workforce plan that we have just recently 
released a month or two ago; it is our third update, I think, 
at this point. We are going to be hiring and increasing this 
workforce over the next 10 years, and that plan does take into 
account the modernization programs as we see them.
    The second thing is the goal, I think, from our perspective 
at the end of the day is that, with traffic growing the way it 
is, what we are looking to do is, as the Administrator said, 
increase the productivity of the workforce to be able to handle 
more flights. You know, the growth is essentially going to 
require this workforce to continue as we have laid it out in 
the 10-year plan.
    Mr. Carnahan. Thank you.
    I also wanted to ask about the multi-agency transition to 
NextGen that may potentially leave some users in the dust. FAA 
estimates on equipment cost to convert to new technology range 
anywhere from $7,000 to $30,000 for general aviation aircraft. 
Does FAA plan on exempting some general aviation users from 
mandated conversions, for example, turbo prop aircraft? And do 
you feel these costs are reasonable for general aviation? 
Again, back to Mr. Sturgell.
    Mr. Sturgell. I think that does account for why we have a 
broad range and the user costs at the moment. It is going to 
depend on equipage as we go forward, and a lot of that will be 
addressed in the rulemaking process in terms of the proposals 
laid out and the comments we get back from the community.
    I also think, though, that to the extent that equipage is 
going to be required, a lot of these costs should decreased 
just based on a volume perspective. As more avionics are 
produced for specific systems, the market tends to drive the 
price down.
    Mr. Carnahan. And, finally, I wanted to direct this 
question to Mr. Leader or any others that wanted to jump in on 
this, and that is with regard to human factors involved in the 
transition. The planning for NextGen should not just involve 
installing computers and launching satellites; it really 
impacts hundreds of thousands of people whose jobs involve the 
National Airspace System. The GAO and the DOT IG have reported 
that JPDO has not done enough to evaluate how pilots and 
controllers will be affected. What will the JPDO do to address 
this deficiency and how is your agency addressing human factors 
in this transition?
    Mr. Leader. Human factors, sir, is of critical importance 
to the system. As you are aware, with the increase in 
situational awareness, both the flight crews and the 
controllers will have access to more information than they have 
today, and the human factors research to ensure that they are 
able to productively use that while maintaining the safe 
operation of the system is very important to us. It is one of 
the priorities we have established with NASA in our 
collaborative R&D planning.
    Mr. Carnahan. All right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. Thank you.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Coble.
    Mr. Coble. Thank you, Mr. Chairman. Additionally, I want to 
associate my remarks with yours and the distinguished Ranking 
Member's opening comments.
    Good to have the panel with us.
    Dr. Dillingham, I think you are one of the most frequent 
visitors we have had. It is good to have you back on the Hill. 
If we keep inviting you up here, you will be picking your mail 
up here.
    Mr. Dillingham. Yes, sir.
    Mr. Coble. Good to have you back.
    Mr. Sturgell, the Ranking Member, I think, put this 
question to you. I have been in and out on the phone, but 
regarding the implementation of NextGen, how it would affect 
the rural and small communities, and I believe your answer was 
favorable.
    Mr. Sturgell. That is correct.
    Mr. Coble. I am very interested in this because I have at 
least two of those airports that would fall into this category. 
Let me ask you this. As I say, I have been in and out, and I 
don't think it has been asked. To Mr. Sturgell, Mr. Leader, or 
Dr. Sinha, if you will, lay out the differences between today's 
system and the proposed modernization (a); and (b) how will 
modernization affect frequent fliers, that is, people who fly 
maybe a couple times a week, and there are many people who do 
this.
    Mr. Sturgell. I think the second answer is probably the 
most important in that the goal at the end of the day is to 
create a system that is not going to impede the economic growth 
of the aviation industry or this Country's economy as we go 
forward. In order to meet the forecasted air traffic demand we 
see on the horizon, what we are trying to do is keep delays 
down and to keep the system's ability to move people at the 
same or greater pace than we see Americans wanting to travel.
    Mr. Coble. And as safely as is done now, I am sure.
    Mr. Sturgell. Certainly, that is the number one 
consideration in all of this, safety and then efficiency.
    In terms of--others can pitch in, but the simplest way, in 
my mind, to describe how the Next Generation system is 
different from today's system goes back to the fact that it is 
going to become a much more automated system and it is a system 
that is going to take us from where we are today in terms of 
air traffic control of individual airplanes to a role where 
both controllers and pilots are involved in the air traffic 
management. We do also want to take advantage of the 
capabilities in the airplanes today, which we are not currently 
doing.
    Mr. Coble. Any others want to weigh in?
    Mr. Sinha. Thank you, Congressman. I would like to make a 
couple of comments regarding the changes from now to the 
NextGen system.
    The key words that come to my mind are that the future 
system is still going to be human-centric, so there will be 
people involved both in the aircraft and on the ground, but it 
will be automation-intensive. There will be lots of routine 
tasks that the humans do today that the automation can do 
easier and faster. So you will see a trend of some of the roles 
of the humans changing in the system. The other element of the 
change that we will be seeing is that it will be a lot more 
aircraft-centric. The capabilities in the aircraft are going to 
be, compared to today, phenomenal, in terms of the accuracy and 
the information that they can have available. So you will see 
those two as major changes.
    In terms of getting there, I think the human-in-the-loop 
experiment that we have done with the controllers has shown 
that doing business as usual is not an option. Even in some of 
the heavier traffic areas, 25 percent growth is not going to be 
possible with the current way of doing business. So even the 
controllers are saying we need something different.
    Mr. Leader. Yes, sir. I would just add that when we achieve 
the level of automation that is planned in the NextGen system, 
one major difference is that we will be able to manage the 
individual trajectory of all the aircraft that are flying under 
control of the National Airspace System on an individual way, 
and we will be able to adjust those flight trajectories after 
the departure of the aircraft to react to developing weather 
conditions.
    Today, weather results creates about 70 percent of the 
delays in the system, and being able to more realistically 
react to an evolving weather condition dramatically reduces 
delays. And in the process of doing so, our initial modeling 
shows that the system-wide savings for users of the airspace 
will be in the tens of billions of dollars, mostly in fuel, but 
obviously having dramatic impact in the reduction of emissions 
into the environment.
    So things will be dramatically different and the benefits 
will also be dramatic.
    Mr. Coble. Thank you, gentlemen.
    This may have been touched on as well, but with the 
automation coming on, I presume inevitably it will reduce the 
number of air traffic controllers. Or will it?
    Mr. Sturgell. Well, as we look out over the 10 years, we 
have laid out the hiring plan for our air traffic controller 
workforce during that period of time, and we see it increasing. 
Our view is that that level of controllers will be able to 
handle that much more additional traffic which we see coming 
into the system.
    Mr. Coble. I got you. Thank you.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Costello. Thank you.
    The Chair recognizes the gentleman from Illinois, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Just to briefly comment on the last question that Mr. 
Sturgell was addressing, I want to echo some comments by the 
Chairman and Mr. Carnahan. I want to make sure that we do have 
an adequate number of air traffic controllers, well trained air 
traffic controllers as the system moves forward.
    I wanted to move on to another question with Mr. Scovel. In 
your written testimony you state that the most urgent concern 
facing terminal automation is how quickly the FAA can replace 
aging displays at four sites: Chicago, St. Louis, Minneapolis, 
and Denver. Can you talk about this?
    Mr. Scovel. Thank you. Yes, we can. This is an item of 
great concern to my office, and it really dates back as well to 
the implementation of the STARS program, because when STARS 
came on and then reached its roadblock, if you will, when costs 
began to rise and the program was curtailed to leave open over 
100 facilities that lacked terminal modernization, it was 
identified both by FAA and by my office that four key 
facilities--Chicago, Denver, St. Louis, and Minneapolis--would 
be left with aging display equipment which really put 
controllers at a disadvantage and quite possibly had safety 
implications, and that with this aging equipment in place, a 
series of software upgrades were not possible to be installed.
    We believe, thanks in part to our effort and FAA's budget 
request, that funds are now available to the FAA to replace two 
of those four systems. They have not yet been replaced, but the 
Congress had made those funds available specifically to FAA for 
that purpose. In the continuing resolution, in fact, additional 
funds have been made available.
    Where we take issue, however, is with the fact that FAA has 
really lost an advantage when it came to executing a contract 
for the replacement of those aging displays at the four 
locations because in accepting the industry's offer between 
Raytheon and Lockheed Martin to enter into a joint contract for 
the replacement of these displays and the time that was lost in 
negotiating with the contractors and bringing that contract to 
fruition, in the meantime, the displays remained in place and 
software upgrades were not installed. We would urge FAA to 
continue to make all due progress, all due haste in this regard 
because when the funds are on their books and those facilities 
are still lacking the terminal upgrades that are necessary and 
the safety implications are indeed involved, then time is of 
the essence.
    Mr. Lipinski. Thank you, Mr. Scovel.
    I just want to move on, with the limited time I have left, 
to ask Mr. Sturgell, Mr. Leader, and Dr. Dillingham anything 
that you can tell me about efforts to harmonize NextGen with 
the European SESAR project that is now going on.
    Mr. Sturgell. I think we have done a lot in the area of 
harmonizing with the Europeans. The Administrator has worked 
with Mr. Barron; we have an agreement in place with them. We 
are working on current demonstrations or other things we can do 
to make sure we are going to be harmonized going forward. We 
are doing similar things on the other side of the continent 
with countries like China.
    You know, the goal at the end of the day is an 
interoperable air traffic system for the users.
    Mr. Lipinski. Anyone else want to comment on that?
    Mr. Dillingham. Yes, Mr. Lipinski. I think one of the 
questions that is often asked of us by this Committee is who is 
ahead in terms of SESAR versus the U.S., and I think, when you 
look at implementation, it is clearly the U.S. You have heard 
testimony this morning about some NextGen technologies already 
on the books to be implemented--ADS-B, SWIM, and some of the 
RNP--so clearly, we are ahead in terms of implementation.
    Mr. Lipinski. Mr. Leader?
    Mr. Leader. Yes, sir. I would just point out that we have 
interactions with the European community on a number of levels. 
We have technical interchange meetings that happen fairly 
regularly to discuss common technical issues that we have. We 
have a joint task force with the European Commission working on 
the harmonization of the two systems and we have, from 
EuroControl, a full-time liaison assigned to the FAA.
    Mr. Lipinski. Thank you. Thank you, Mr. Chairman.
    Mr. Costello. Thank you. Just as a side note, I would agree 
with Dr. Dillingham. A few weeks ago I had the opportunity to 
sit down with some of the folks from EuroControl, and I would 
agree with you, Dr. Dillingham. While I think that in your 
testimony, Mr. Sturgell, you indicated that they have their 
funding in place, there is a commitment for funding, but I 
would agree with Dr. Dillingham, with his statement.
    At this time, the Chair recognizes the former chairman of 
this Subcommittee, my friend from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing on this very important subject. 
All of the witness, I think, have given us very informative and 
very helpful testimony. But I think Inspector Scovel hit the 
nail on the head when he said a few minutes ago that our 
ultimate concern in this Committee has to be the cost.
    I heard a speech one time by Charlie Cook, the political 
analyst that is so respected on both sides of the aisle. He 
said he didn't think that anybody could really comprehend any 
figure over a billion dollars. And we talk about these figures 
almost like they were nothing. But I would guess that if we 
were able to bring a billion dollars in $1 bills in this room, 
it would boggle our minds at how huge the amounts are that we 
are talking about.
    So I am getting at a couple of things. In our briefing 
paper, it says in June of 2005, the GAO reported that to date 
the FAA has spent $43.5 billion for ATC modernization. And I 
remember hearings of six and seven years ago and so forth. 
These projections on these increases in passengers were almost 
exactly the same then as they are now. We were told that all 
this money we were spending was going to have us prepared for 
these big increases. Yet today we hear that the system is at 
its capacity and how bad the problem is. I don't doubt that.
    Then it says in May of 2005, the Department of 
Transportation Inspector General reported that 11 major FAA 
acquisitions experienced cost growth totaling $5.6 billion and 
9 had schedule slips ranging from 2 to 12 years. Looking toward 
NextGen, the DOT IG stated that the FAA needs to articulate a 
strategy for how it will mitigate past problems that led to 
massive cost growth.
    Now, what I am wondering about, Mr. Sturgell and Mr. 
Leader, you have heard Mr. Scovel talk about certain action 
items. Do you agree with his action items, and what are we 
doing to make sure that five or ten years from now, we are not 
going to be having another hearing in front of this 
Subcommittee and hear about these massive cost growths and 
slippages, slippages ranging from 2 to 12 years? Are you 
putting some penalties or incentives in some of these 
contracts? What is happening?
    Mr. Sturgell. We are using some of those things, and 
specifically, the current en route automation and modernization 
program for all of our centers includes those types of 
incentives for the contractor. That program is currently our 
biggest one and it is on budget and on schedule.
    Mr. Duncan. Do you feel that you are doing these action 
items that Inspector Scovel mentioned?
    Mr. Sturgell. I think largely we are. I can't sit here and 
say what the specific ones are. I would just say that during 
this Administrator's tenure, we have worked very closely with 
the Inspector General's office to help resolve what these 
longstanding concerns about the management of the capital 
programs. As they both testified today, we have made a lot of 
progress in the last four or five years or so in this area. And 
it is something that we continue to be focused on.
    We have met our targets now for several years in a row, we 
are on track this year, we know how important it is going 
forward to have programs to be on cost, on schedule, meeting 
the metrics. So we are looking at ways to come up with better 
metrics, to help manage these programs, better training, more 
up front in terms of research, development, demonstrations, 
things that will help us stay on the track record we have had 
for the last couple of years.
    Mr. Duncan. Mr. Leader, anything you want to add?
    Mr. Leader. No, sir, except to say that in the planning 
phase, we are structuring the approach to very much continue 
what the FAA is currently doing in terms of both leveraging 
existing technologies, particularly those that have been 
developed by the Department of Defense that are appropriate for 
us to build on, and also to extensively use demonstrations and 
flight trials to mitigate risk before we begin any major 
acquisition.
    Mr. Duncan. My time is running out, but the understatement 
of the hearing was when Dr. Dillingham, whom we all respect so 
much, he said that this $13 billion in variation on these cost 
estimates was pretty big, or something to that effect. We were 
briefed about that also, and Ranking Member Petri talked about 
that.
    Do you gentlemen have cost estimates? Do you also see those 
huge variations in cost estimates and are you doing something 
to bring them down or do you think we have been given sort of 
incorrect information about that?
    Mr. Sturgell. Mr. Duncan, those are our cost estimates, and 
I would just say any corporation looking out 20 years from now, 
it is very tough to nail down things with precision. I think 
our estimates are in line, though, with what the Europeans are 
estimating, which is a good gauge for us as to where we are. 
And then as we get closer, we are much more precise. We have 
got $4.6 billion for the next five years laid out very 
specifically in several plans about where we are going to spend 
that money and on what. As we go forward, these things will get 
much more precise.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Costello. I thank you.
    The Chair now recognizes the gentleman from Iowa, Mr. 
Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Mr. Scovel, I want to follow up on one of the comments you 
made earlier. It was also addressed in your written testimony, 
where you stated that the most urgent concern facing terminal 
automation is how quickly the FAA can replace aging displays at 
four large sites that are particularly critical to the national 
airspace system, and quite frankly, very important to my 
personal airspace: Chicago, Denver, St. Louis and Minneapolis, 
which I fly through frequently.
    Can you explain in a little bit more detail the magnitude 
of the problem that situation presents to our air traffic 
system that depends so heavily on those connecting hubs in the 
midwest?
    Mr. Scovel. I can in general terms, and I would be happy to 
provide you with a more specific answer. But as a caveat, I 
must note that I am not a technological whiz to begin with.
    But it is my understanding, sir, that these four sites, 
because those terminal displays have not been replaced in a 
timely fashion, software upgrades have not been able to be 
installed at those four sites. And those pose a conceivable 
safety risk.
    Right now, those sites, terminals at those four sites have 
a black and white display. It is my understanding that with the 
replacement of the displays at those sites and with the 
accompanying software upgrades that can then be installed, the 
controllers who are working on those machines at that point 
will then be able to have a much clearer picture on air traffic 
that they need to control safely over their airspace.
    Mr. Braley. Last weekend, I toured the air traffic control 
facility at my home airport in Waterloo, Iowa. I was amazed at 
the range of equipment and the age of the equipment that was 
there for the air traffic controllers to use. Is that something 
that is systemic across the entire system, or is it more 
heavily concentrated in the regional airports? What is your 
understanding of that situation as a general proposition?
    Mr. Scovel. I believe it is systemic. My basis for that 
conclusion would relate not only to my response to your 
question relating to terminal displays at the four main centers 
that you mentioned, but also to the situation that had to do 
with the STARS program, and Members of this Committee are well 
familiar with that, I believe. STARS began as a program that 
initially would cost less than a billion dollars and would 
upgrade control displays at 170 facilities, cost growth and 
schedule slips required the program essentially to be curtailed 
at a cost of about $1.4 billion and with less than 50 sites 
serviced. That means that over 100 other controller sites still 
have older equipment. I daresay that is the reason why you saw 
the equipment that you did.
    Mr. Braley. One of the topics that was critical to a number 
of the presentations I reviewed had to do with the critical 
role of human factors research as we move into Next Generation. 
In your statement, you talked about the FAA identifying a 
variety of issues that will require additional human factors 
work, increased automation and new technologies and the impact 
they have on flight crew workload, the effect that changing 
roles and responsibilities have on safety, alerts and 
information displays a pilot needs to safely oversee conflict 
detection and resolution and automation failure. I would just 
like to present this question to the panel as a whole, but are 
we talking about human factors analysis that is going to go on 
the front end evaluation of how these systems are designed, 
human factors analysis of how they play out in a simulation 
environment before they are fully implemented, and then human 
factors follow-up as the NextGen gets rolled out? Or what type 
of human factors emphasis are we looking at here?
    Mr. Scovel. I will defer in a moment to Mr. Sturgell and 
Mr. Leader on aspects of your question, sir. But at this point, 
let me say that our belief is that human factors, research and 
involvement, specifically in the case that you mentioned, by 
controllers, and also by flight crews, because of course, they 
are going to be involved, when some of the responsibility for 
separation of aircraft in-flight will shift from the ground 
control facility to the cockpit with ADS-B and other 
technological improvements, that human factors research needs 
to include those elements of the workforce, controllers and 
flight crews.
    We would also make a point, and I don't know that, I know 
it is made in our testimony earlier, in our written statement, 
but I don't know that it has been made on the record verbally, 
and that has to do with the involvement of NASA. Both OIG and 
GAO have pointed out that NASA intends to essentially curtail 
its research in the JPDO area. They intend to focus more on 
fundamental research. In the past, NASA has devoted great 
effort, time and money to human factors research. And if we see 
NASA withdrawing from the type of research that can be readily 
applied by the JPDO to the NextGen effort, then it leaves open 
the question of what will happen with that human factors 
research. Who will do it, how will it be managed, how will it 
be paid for, what guarantees can we get as to its accuracy?
    Mr. Dillingham. Mr. Braley, I think the short answer to 
your question is that in all three cases, before, during and 
after, clearly when we have a system that is going to shift 
from, as Mr. Sturgell said, from air traffic control to air 
traffic management and automation, it is going to be very 
important that the human factors element be very much involved 
in this. It is also one of the reasons why we think it is 
important that the controllers and the technicians and the 
pilots and all the people who are going to be involved have a 
part in developing and planning the system.
    Mr. Leader. Yes, sir, I agree. We are looking in the long 
term, working with NASA on both the human factors issues but 
also on failure mode recoveries. Because in the automated 
system, that is a critical part, obviously, of the safety. But 
today we have human factors work going on within the FAA's 
research efforts specifically up at Atlantic City. There are 
today human factors experiments taking place to deal with the 
near and mid term issues that transformation of the system will 
create.
    As well, I would suggest that Dr. Sinha might want to say 
something about the human factors work that MITRE-CAASD 
currently has underway here in the Washington area.
    Mr. Sinha. Mr. Congressman, if I might, I think I would 
like to differentiate the different types of human factors 
analysis. One is the fundamental research in human factors in 
terms of creating the principles of human factors. But I think 
equally important is what I would call applied human factors. 
And I think that really, just like safety, it has to be built 
in from the beginning. You can't add human factors at the end 
or you can't add safety at the end.
    So I think again, the short answer is in all phases. And 
some of the research that we are doing, we do bring in 
controllers who are qualified to work the sectors, to help us 
both with the ideas and the pilots in the simulation as well as 
in the demonstrations that we do. We agree that it is very 
critical. And to me, the proof of the pudding is really in the 
applied human factors.
    Mr. Braley. Thank you.
    Mr. Costello. The Chair now recognizes the gentlelady from 
Oklahoma, Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chair. Gentlemen, we appreciate 
all your great work on this subject and helping us transform 
our air traffic control system.
    I was interested in your comments about the human factor. I 
was thinking about the general aviation pilots. And with the 
Next Generation system that we are talking about, and you 
mentioned, someone mentioned earlier about the cost of the new 
avionics that will go into the general aviation planes could be 
anywhere from $7,000 to $30,000 possible guess cost for the 
electronics. But the human factor of learning a new system when 
you are just a recreational pilot and trying to fly, I was 
thinking back on, I am just a couple hours away from getting my 
license. I used to fly old 182s. My agency I worked for bought 
a new 182 that had all the new avionics like electrical, 
computer equipment and I was just lost when I was that.
    So I was thinking about the pilots coming online with the 
Next Generation system, have we got an idea of how complicated 
it is going to be for the recreational pilots and what type of 
learning curve there will be for the human side of things?
    Mr. Sinha. Let me comment from the experimentation side of 
how we are doing that. First of all, I would like to state that 
when we talk about avionics and when we talk about changes, not 
everything applies to everybody. So for the commercial pilot to 
be flying into New York is definitely way different than the 
recreational pilot flying out in the midwest with really nobody 
else bothering them, so to speak.
    So when we talk about the avionics and the avionics 
equipage, it is very dependent on what is it that you are going 
to be doing with your aircraft. So for the air transport 
quality avionics, yes, that is going to be much more 
sophisticated and they will have to go through the training, 
just like they do today. For the recreational pilot, actually 
again the changes will not be that phenomenal.
    We will, I think, Mr. Sturgell talked about WAAS, the wide 
area augmentation system, that does give you a capability, for 
example, to have precision approaches where you haven't had it 
before. So that would require some training. But again, I don't 
think it is going to be unsurmountable.
    Ms. Fallin. That is good to know. I have one other question 
on the air traffic controllers. We have talked a lot about the 
increased travel in the United States and projections on that, 
and the aging workforce of the air traffic controllers and the 
need for more of them. But how will the Next Generation system 
and the learning curve, once again, on the human factor for the 
air traffic controllers, how much extra training, do you have a 
plan in place, have you started thinking about what their needs 
will be as they try to learn this new system we are talking 
about?
    Mr. Sturgell. I think we have started doing that, and that 
is one of the things we did with MITRE last year in terms of 
performance-based air traffic management and the changes in the 
controller's role. And all of that, we will certainly be 
including them today as we do and going forward as well.
    Ms. Fallin. Are you expecting they are going to have a lot 
more to learn in this new system? Or is it going to be 
relatively general basic concepts?
    Mr. Sturgell. It is a different role. We are very focused, 
it is one of our highest priorities, on the whole retirement 
issue and staffing of the facilities and the hiring process. It 
is a new generation of controllers that we will see coming in 
over the next decade. It is probably a generation that is much 
more familiar with technology and computers than folks that 
were born 30, 40 years ago or whatever.
    So I think this is a workforce that has seen a lot of 
change before. It is a workforce that is probably going to see 
a lot of change as we go forward. But it is a workforce that 
responds to changes. And I think it is going to be a better 
job, more exciting job for the controller workforce in the 
future as well.
    Ms. Fallin. Thank you very much.
    Mr. Sinha. If I might add just a comment on that. I think 
it is going to be different type of training. And the way I 
characterize it is the difference in computer dexterity between 
myself and my kids. They just take to it like fish to water and 
they are there. So a lot of the training that will be done will 
be a lot more sophisticated in terms of the simulation based 
training or intelligent tutoring system. As an example, we have 
implemented the system that Mr. Sturgell talked about in 
Indianapolis. These are real controller trainees today. They 
are absolutely delighted with the way that it is being done and 
they will not go back to the older system of training.
    So back to the Playstation 2 generation that is coming 
online, I think that is a big advantage.
    Ms. Fallin. Sounds like it might be a new marketing and 
recruitment tool for you.
    Thank you. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady.
    At this time the Chair recognizes the distinguished 
Chairman of the full Committee, Chairman Oberstar.
    Mr. Oberstar. This is a very important hearing, yet another 
one in a long series that Chairman Costello and Ranking Member 
Petri are doing and the Com aviation. What puzzles me, and Mr. 
Leader, I want to have your explanation of this, that we keep 
hearing and getting vignettes of information about the FAA 
planning to have the ADS-B vendor to actually operate the 
system in charge of fee for its service. Is that what is in the 
works? Either one of you, Mr. Sturgell, Mr. Leader, toss a 
coin. Decide who is going to answer.
    Mr. Sturgell. The contract, as we are putting it forward, 
Mr. Chairman, is a services performance-based contract. It is 
not unlike us purchasing electricity today or purchasing 
telecommunications today. I think to probably try and help 
clarify this, we're looking at a service-based contract where 
the service provider would provide this particular service.
    At the same time, that service provider could, for example, 
contract directly with an operator to provide an additional 
service through that same mechanism. It is not unlike what we 
do today internationally with communications. We contract today 
with a company called Airinc overseas to provide international 
communications services between the FAA and the user of the 
system. At the same time, that user also contracts directly 
with Airinc to provide other capabilities outside of the FAA's 
needs. For example, a United Airlines needs to talk to a United 
dispatcher, that would be a service Airinc could provide to 
them.
    That is the way the ADS-B contract is being set up. It is 
not unlike things we do today. I think it gives the Government 
a lot more flexibility. It also reduces our capital costs. It 
gives us, I think, better flexibility to react to future 
increases. And I think it puts more risk on the vendor in terms 
of delivering the capability.
    Mr. Oberstar. Aren't you hanging a great deal of the future 
of air traffic management on the ADS-B technology?
    Mr. Sturgell. We do see ADS-B as one of the backbone 
technologies of the NextGen system as we go forward.
    Mr. Oberstar. Now, you don't, you use the technology of 
STARS in the same manner? Nor the DSR in the en route system?
    Mr. Sturgell. We have systems today that we have bought, 
own and operate, and we have things today that we have 
purchased through services or other transaction agreements. It 
is a model that has worked very successfully for us today. It 
gives us both a good, robust private and public sector 
involvement. That is kind of the model we see going forward as 
well.
    Mr. Oberstar. Who is the primary vendor on the ADS-B?
    Mr. Sturgell. There are three teams that are competing for 
that contract. It has not been awarded yet. The leads----
    Mr. Oberstar. Who are the three?
    Mr. Sturgell. The three leads are ITT, Raytheon and 
Lockheed Martin.
    Mr. Oberstar. Okay. And when do you anticipate making a 
final decision?
    Mr. Sturgell. We anticipate awarding that contract by the 
end of the summer, end of August is what we're looking at.
    Mr. Oberstar. And what protections are you planning to 
build into the contract? For example, against, you have a 
primary and then you said that the primary contractor could 
engage a secondary contractor. What safeguards are in the 
proposal you intend to float as an IFB, I assume, for 
protection against acquisition by a non-U.S. entity? What 
protections against performance problems?
    Mr. Sturgell. Mr. Chairman, I can just speak generally. We 
do have those types of performance problem protections built 
into a lot of our contracts.
    Mr. Oberstar. Will you submit those for this Committee?
    Mr. Sturgell. Yes. I was going to offer that we could bring 
the program office and come up and brief you more specifically 
about what we are looking at for that contract.
    Mr. Oberstar. Is there specific protection against sale or 
acquisition of this to a foreign interest?
    Mr. Sturgell. I can't speak specifically on that right now. 
I'd have to follow up with you on it.
    Mr. Oberstar. If you are banking the future of air traffic 
control management on a technology system that is going to be 
not owned by the FAA and sequentially contracted to a secondary 
vendor and then subject to acquisition by a foreign interest, 
then the future of aviation in the United States is, I think 
precarious.
    Mr. Sturgell. I appreciate the concerns. I am sure we have 
protections built in. I just don't know them specifically off-
hand. The FAA will own the data that is being provided through 
this service and this contract.
    Mr. Oberstar. But not the technology itself, not the 
hardware?
    Mr. Sturgell. This technology is being used worldwide. The 
Canadians are moving with it, Australia is moving it system-
wide.
    Mr. Oberstar. Yes, I understand, Canada is moving it and 
Australia is moving it and Europe. We just had, in the 
beginning of April, we had a very intense review of EuroControl 
and European aviation safety, safety oversight agency. I just 
say once again that the Southern California TRACON handles more 
air traffic than all of Europe combined. Don't tell me about 
all these other countries and systems that are so great and 
wonderful. I heard about Norway a few years ago. Norway has 
about as much air traffic as Minneapolis St. Paul. You are 
dealing with a huge system here.
    And I hear Lockheed is one of the competitors for this. We 
had an 11 hour, I am sorry, until 11:30 at night, a nine hour 
hearing on Lockheed's mismanagement of the Coast Guard's 
Deepwater program, one where, very similar to what you are 
proposing here, self-certification, where they are going to 
operate this system, going to contract it out to them, they are 
going to run it and you are going to pay a fee for it. What has 
happened with the Deepwater program is that the taxpayer is 
paying a huge cost. They are going to have to scrap nine ships 
that were perfectly fine until the Coast Guard allowed this 
contract out and let Lockheed and Grumman Boat Division mess 
them up, not take advice from anybody else, self-certify.
    I don't want to see that happen to our air traffic control 
system. These are not like airplanes that the airlines rent, in 
effect, from GE Leasing, or now Boeing Leasing or Airbus 
Leasing. You are charting the future of air traffic control in 
America. You have a huge responsibility on your hands. And we 
have to make sure it is done right.
    Thank you.
    Mr. Costello. I thank the Chairman.
    To follow up on the point that Chairman Oberstar made, Mr. 
Scovel, let me ask you about the RNP routes system. The FAA is 
relying on a third party to help design the RNP routes, as you 
know. Further in Section 410 of the reauthorization proposal 
that the FAA submitted, it would expand the authority of the 
FAA to non-Government third parties to develop new procedures. 
I wonder if you might express your current concerns and any 
thoughts you may have on the RNP third party design and 
expanding the authority of the FAA to give non-Government 
authorities third party jurisdiction and procedures?
    Mr. Scovel. Thank you, Mr. Chairman.
    My staff has not had time to study this question in detail, 
but our initial take on it was that this represents a 
considerable delegation on the part of the FAA Administrator of 
her powers regarding RNP currently, which are to develop, 
implement and maintain RNP. Currently, third parties are 
limited only to the development of one-third of that equation. 
As I understand the proposed legislation, the Administrator 
proposes to expand third parties' powers to include not only 
development but also implementation and maintenance of RNP.
    As a general matter, we have concerns, and I think these 
echo perhaps some of those that Mr. Oberstar was just making, 
when it comes to contracting out or privatization or 
outsourcing. While some of these questions are certainly policy 
matters for the Congress, as an Inspector General, our concerns 
have to do first of all with maintaining a strong Federal role 
for establishing performance requirements.
    Secondly, Mr. Oberstar mentioned certification. We would 
maintain that that too is a matter of concern for us, 
especially when certification has to do with safety, as RNP 
ultimately will.
    Finally, we see a continued need for agency oversight. And 
not the kind of oversight, certainly, that my office, as an 
office Inspector General, would provide. While we can go in and 
in great detail through a program audit for a specific period 
of time conduct a detailed examination of a program, what is 
necessary in these outsourcing or privatization efforts is the 
kind of oversight that the Agency itself must maintain. It must 
be a daily, persistent, consistent degree of oversight that 
really removes the Agency from the role of partner with its 
contractor and places it in the role of watchdog.
    If those three concerns are satisfied, then it truly is a 
policy matter for the Congress. And as an Inspector General, I 
am happy to leave those decisions to you.
    Mr. Oberstar. Will the Chairman yield?
    Mr. Costello. Yes.
    Mr. Oberstar. The Inspector General is bringing an 
extremely important refinement on the issue and the delineation 
of the details of oversight that he spelled out we should 
review from the record and incorporate that into our thinking. 
I want the FAA to take particular note of those concerns.
    That is exactly what I am talking about. Not end of the 
road, the Inspector General usually comes in when a program is 
well down the line and sees whether it has been performed 
properly. FAA is doing it day to day. That is what your 
distinction is, and I think that is extremely important.
    Mr. Costello. Thank you, Mr. Chairman.
    I want to be clear, Mr. Leader, before we conclude this 
panel and go on to the second panel, it is my understanding 
from your testimony that at the end of June we can expect to 
get the enterprise architecture. And by the end of July, we 
will have the integrated work plan. At the end of July, when we 
have both of those plans together, I believe that you, in 
answer to my question, you said that it will clearly define and 
it will be a comprehensive plan defining both time lines, cost 
and the program development policy implementation. Is that 
correct?
    Mr. Leader. Yes, sir, with the caveat that as we coordinate 
it with our partners agencies, it will continue to be refined. 
But it is the baseline for the planning going forward.
    Mr. Costello. But you believe that both the enterprise 
architecture and the integrated work plan will be completed by 
the end of July? They will be comprehensive and they will 
answer the questions about cost time lines and how the system 
will be implemented?
    Mr. Leader. Yes, sir.
    Mr. Costello. Very good.
    Unless there are other members who have questions, Ms. 
Fallin? Do you have any further questions? Chairman Oberstar?
    Mr. Oberstar. May I just ask, I intended to, I didn't want 
to extend the time, but Dr. Dillingham, for his observations on 
my concerns.
    Mr. Dillingham. Good morning, Chairman Oberstar. We have 
the same concerns that you have. We echo the concerns that the 
Inspector General in fact voiced. We are particularly concerned 
with, particularly if you talk about ADS-B or more for ADS-B in 
terms of security, we think it is important that it is in fact 
the FAA that will certify and license the contractor for ADS-B. 
But we are concerned that we preserve the rights of the Federal 
Government, particularly where security is concerned.
    At the same time, Mr. Oberstar, we think that we wouldn't 
just out of hand dismiss the possibility of some contracting 
out. Because at this point, it is not clear to us that the FAA 
has all the resources it needs to do all the things that it is 
chartered to do. But it needs the oversight and it needs 
careful scrutiny to the extent that it does do some contracting 
out in this way.
    Mr. Oberstar. A lesson from the past to be observed in the 
present and into the future. In the 1960s and into the 1970s 
and the mid-1980s, the relationship between FAA and IBM in the 
development of air traffic control technology was such that you 
could not tell where FAA left off and IBM began or vice versa. 
For a while, when IBM was the giant uncontested, that was 
somewhat accepted practice. But as other technology and other 
firms with that capability came forward with services and 
equipment and software to offer, and challenged that leadership 
role, and we began to see that FAA was losing its objectivity, 
FAA was losing its innovative ability separate from that of 
IBM, and too strong a dependence on one vendor because a 
detriment to the diversification of the FAA air traffic control 
technology.
    When we had eventually what I called at the time a 
meltdown, when FAA/IBM, IBM/FAA proposed technology standard 
was going to cost maybe $2 billion or $3 billion more, maybe 
not really be achievable, is when finally the Inspector 
General, GAO at the time was of great service to our 
Subcommittee, gave us the reaffirmation of the concerns and 
fears that we had, that are now being repeated again. This idea 
of Section 410 of the reauthorization proposal to designate 
non-Government third parties the ability to develop aircraft 
operating procedures, that is back to the IBM nexus. That is a 
major concern that I have, a lesson that we learned painfully, 
that we created some distance and separation and keep FAA in 
the position of being the overseer, as Inspector General Scovel 
said, day to day, hands on management.
    Thank you.
    Mr. Costello. I thank the Chairman, and would just, as a 
side note, add on the Science Committee we have seen a similar 
relationship between NASA and some of the contractors that they 
have relied on and work with on a day to day basis, and lose 
objectivity and oversight. The same is true with the Department 
of Defense as well. We have had example after example. That is 
why I have major concerns about contracting out and losing 
objectivity and oversight. That is one of the reasons why I 
have made the point many times that we have to be aggressive in 
our oversight to make certain that the agency is doing its job 
and we closely scrutinize their responsibilities.
    With that, I thank all of our witnesses here today, and we 
will note to Mr. Sturgell and Mr. Leader that we have a few 
other questions, one of Dr. Dillingham and a few of you that we 
will submit in writing and ask that you answer them in writing. 
We thank you for your testimony today, and look forward to 
seeing you again.
    I will now call on our second panel to come forward, 
please. As the second panel is coming forward to be seated, let 
me introduce our witnesses.
    The first witness is Peter Bunce, who is the President and 
CEO of the General Aviation Manufacturers Association. Next is 
Dr. Christina Frederick-Recascino, the Interim Provost and 
Director of Research at Embry-Riddle Aeronautical University; 
Tom Brantley, the President of the Professional Airways Systems 
Specialists; and Dr. Michael Romanowski, who is the Vice 
President of Civil Aviation, Aerospace Industries Association.
    We appreciate all of you being here today and look forward 
to hearing your testimony just as soon as you get seated. We 
would make note that your testimony in its entirety will appear 
in the record and would ask each of you to summarize your 
testimony. We would call on Mr. Bunch, you first, sir.

    TESTIMONY OF PETER J. BUNCE, PRESIDENT AND CEO, GENERAL 
    AVIATION MANUFACTURERS ASSOCIATION; CHRISTINA FREDERICK-
  RECASCINO, PH.D., INTERIM PROVOST AND DIRECTOR OF RESEARCH, 
    EMBRY-RIDDLE AERONAUTICAL UNIVERSITY; THOMAS BRANTLEY, 
 PRESIDENT, PROFESSIONAL AIRWAYS SYSTEMS SPECIALISTS; MICHAEL 
    ROMANOWSKI, VICE PRESIDENT OF CIVIL AVIATION, AEROSPACE 
                     INDUSTRIES ASSOCIATION

    Mr. Bunce. Chairman Oberstar, Chairman Costello, Ranking 
Member Petri, thank you for inviting me to testify before the 
Subcommittee today. And thank you for entering my full 
statement into the record.
    On behalf of our 60 member corporations and the thousands 
of employees throughout the U.S. and the world, I applaud this 
Committee for taking the initiative to have a hearing on this 
critical issue of transformation. Despite the many differences 
that exist between general aviation and the major airlines, the 
regional airlines and the cargo folks dealing with funding of 
the system, there is nothing that we agree more on and nothing 
that binds us all together as much as the critical need for 
transformation.
    Mr. Chairman, just last week the Senate took critical steps 
toward the implementation of NextGen with the introduction of 
S. 1300, the Aviation Investment and Modernization Act of 2007. 
Although GAMA has significant concerns over the bill's 
inclusion of a $25 user fee, we do applaud the Senate for its 
work in strengthening JPDO in addressing critical needs for 
NextGen.
    Likewise, we know every member of this Committee is deeply 
concerned about the pace and planning for NextGen and know that 
your focus on this issue will bring about positive change.
    Mr. Chairman, the JPDO was designed as part of Vision-100 
legislation to leverage the institutional and technical 
knowledge of many Federal agencies involved in the 
transformation process. Unfortunately, many of these 
relationships, so desperately needed for JPDO and NextGen 
success, have failed to mature. We believe that in order for 
the JPDO to be successful, some fundamental structural changes 
are necessary. Greater authority needs to be given to the JPDO 
director, to include being a major player on the FAA's Joint 
Resources Council.
    Clearly delineating the reporting lines for the JPDO 
director is important, both up the chain and for those that 
work for him. And also increasing the Government-wide support 
for NextGen to include not only signing the memorandums of 
understanding, but working to make positive change to their 
budgets, R&D approaches and a sharing of personnel with the 
JPDO.
    And finally, to abandon the stovepipe approach that FAA 
acquisition processes are used within the OEP to be able to 
take a more systems-wide look at acquiring the system that we 
need to perform in NextGen.
    But structural changes alone won't fix the problem. We 
strongly encourage Congress to work with industry and push the 
JPDO, the FAA and the Department of Transportation and other 
participating Government agencies to clearly define what they 
intend to build and how they intend to build it. This 
comprehensive plan defining both time and required costs must 
incorporate reasonable and executable time lines for program 
development, policy implementation and rule development, 
aircraft certification and aircraft equipage.
    You have heard this morning that the plan that is going to 
be brought forward will talk, will be a plan that will provide 
a baseline for all others. But I can tell you today with 
certainty that this plan will not tell us as manufacturers what 
we have to build to put in the airplane to execute just very 
basic backbone systems like ADS-B. We do not have that 
delineation right now for the manufacturers to be able to know 
exactly what to put in the aircraft. That is why aircraft 
coming off the production line today, even though we have ADS-B 
elements in it, are not going to be able to operate in the 
system as we probably will see it out there, because we don't 
have the design specifications as of yet.
    In order for the system to work, aircraft owners, both 
commercial and GA, will have to equip their aircraft to operate 
in this new system. Now, the FAA Administrator defines the cost 
of equipage as being roughly equal to the cost of the 
Government investment. Let me use ADS-B as an example. The main 
concern facing us with ADS-B roll-out is that the benefits are 
still undefined to the users. In fact, we are trying to help 
the FAA define those benefits.
    But unless we know what those benefits are, what we are 
going to find is that people will equip with this technology at 
the back end of the window, and that is what we saw with the 
reverse vertical separation memo, RVSM. If they wait until the 
back of the window, that is out at 2020. Now, the FAA just 
revised their estimates of what equipage would be like when 
they get the ground infrastructure in place at about 2014. They 
talked originally about perhaps having 40 percent of the fleet 
equipped, now they have revised that to 26 percent. If we are 
going to truly reach a capacity limit around the year of 2015, 
2016, 2017, and we aren't going to have a majority of the fleet 
equipped until way out at the end of the window, at the end of 
near 2020, then all the time lines don't reconcile. That gives 
us serious concern.
    GAMA believes that Congress must identify a reasonable 
performance-based and revenue neutral strategy to try to 
incentivize equipage. That is part of the debate that hasn't 
been talked about a lot. We talk about the Government 
investment in this. But unless we are able to somehow figure 
out a revenue neutral way to incentivize both the commercial 
and GA folks to be able to equip with this technology, we are 
not going to get the benefits early enough to be able to solve 
the capacity problems out in the system.
    Mr. Chairman, thank you for letting me be here today and I 
look forward to your questions later on.
    Mr. Costello. We thank you, Mr. Bunce.
    The Chair now recognizes Dr. Frederick-Recascino.
    Ms. Frederick-Recascino. Chairman Costello, Ranking Member 
Petri, Chairman Oberstar, thank you for allowing me to testify 
today.
    My name is Christina Frederick-Recascino, and I am the 
Interim Provost and Director of Research at Embry-Riddle 
Aeronautical University, the world's largest and oldest 
university solely devoted to aviation education and research. 
Our students, faculty and staff live and breathe aviation.
    In the United States, we have been fortunate to enjoy a 
vibrant air transportation system, allowing us to move across 
the Country quickly and easily. However, this year, all trends 
indicate that congestion may be at an all-time peak. The skies 
are crowded, the quality of the traveling experience, according 
to all evidence, is declining and the American public deserves 
better.
    At Embry-Riddle, we are currently testing solutions that 
will improve safety and decrease congestion in the national 
airspace. One of these solutions is the ADS-B system. Embry-
Riddle was one of the early pioneers in the installation and 
testing of ADS-B. Embry-Riddle outfitted its entire fleet of 
100 aircraft with this system and has provided data to the FAA 
bout increases in safety resulting from this retrofit.
    We believe it is a good thing, and we have shown that 
increased situation awareness provided to pilots and operation 
center staff resulting from ADS-B has enhanced the safety 
record of our fleet. We have experienced a significantly lower 
number of near mid-air incidents since our ADS-B installation.
    Embry-Riddle recently has embarked on another ambitious and 
timely project. We have created a university public-private 
partnership called the Airport of the Future. With our private 
partners, Lockheed Martin, Transtech, ENSCO, Sensis, Jeppesen 
and Mosaic ATM and three others who are in process, and our 
public partners, Volusia County, Florida, and the Daytona Beach 
International Airport, we have created a cutting edge national 
test bed for new air modernization technologies in the tenth 
busiest airspace in the Country at a working commercial 
airport.
    The Airport of the Future is a four-phase project, 
developed in response to the call for air traffic and airspace 
modernization. Each phase will focus on a different air 
modernization problem. The first phase examines airspace and 
airport safety, including further testing of ADS-B 
implementation. Phase two focuses on airport capacity and 
efficiency issues. Phase Three examines ramp management 
technologies and point to point technology enhanced arrivals 
and departures. Phase four tests solutions for all-weather 
airport operations.
    The partners in the Airport of the Future project realize 
that new technologies designed to modernize the airspace system 
must be tested prior to implementation. At our test bed, all of 
our private partners have entered into a signed agreement. The 
will bring their technologies to Daytona Beach International 
Airport, where they will be tested and integrated with other 
teams' technologies.
    Embry-Riddle will collect and analyze data from these 
integrated systems. We will have the ability to use the data we 
collect to enter into a simulation to test human factor 
solutions that include human participants in the airspace 
system. Controllers, dispatchers and pilots will be able to 
engage in decision-making activities to test the newest 
technological solutions.
    In addition, the data we collect can be used to generate 
financial estimates of the cost of implementation of these new 
systems, estimates that are crucial to the Federal Government 
and to every tax-paying citizen in this Country.
    On March 27th and 28th of this year, we presented to the 
world the first demo of our project. We had individuals from 
all over the globe come to hear the project, including 
representatives from the FAA, NASA and Germany's DLR. They 
recognize the importance of this project. In a short period of 
time, at DBIA, we will have technologies installed. We will 
show that these technologies can be integrated with all other 
systems that are at the airport. No other project has brought 
together multiple partners who have agreed to work together at 
one location for technology testing and integration. The 
project is really unprecedented in both scale and scope.
    The Airport of the Future should become the next national 
test bed for all NextGen technologies. Since our first 
demonstration, other companies have expressed interest in 
joining our partnership and we open it up to any companies and 
agencies who want to be part of this unique and important 
vision.
    Embry-Riddle's motto is ``Leading the World in Aviation and 
Aerospace Education and Research.'' In all that we do, we look 
to the skies and lead the way to a stronger and safer future 
for aviation. We are asking Congress this year to partner with 
us to make the Airport of the Future the national test bed for 
NextGen technologies. Embry-Riddle and its partners estimate 
the cost of the project to be $50 million over the next five 
years. Our private partners are contributing half the cost of 
the project, along with the technical support from Embry-Riddle 
in a facility provided to us.
    We are requesting that this Committee provide language in 
the FAA authorization bill supporting our efforts for this 
important endeavor, that will provide solutions for airspace 
modernization in the United States.
    Thank you for your time today, Mr. Chairman. This concludes 
my testimony.
    Mr. Costello. We thank you. And the Chair now recognizes 
Mr. Brantley.
    Mr. Brantley. Chairman Costello, Congressman Petri and 
Chairman Oberstar, thank you for asking PASS to testify today.
    PASS represents approximately 11,000 FAA employees working 
throughout the United States and overseas. We appreciate the 
opportunity to present our views on the future of air traffic 
control modernization.
    The FAA has introduced a plan to modernize the national 
airspace system through development and deployment of the Next 
Generation Air Transportation System, or NextGen. Under 
previous administrators, PASS worked closely with the FAA in 
its efforts to modernize the NAS, collaborating on such efforts 
as the development and deployment of the Standard Terminal 
Automation Replacement System, STARS, where it ultimately was 
deployed successfully; the display system replacement, DSR; and 
the National Airspace System Infrastructure Management System, 
or NIMS.
    Throughout these projects and many others, the experience 
and expertise offered by PASS members proved invaluable. As 
Congress has seen over the years, and as testified to by the 
GAO again today, involving the employees who use and operate 
the systems in the development of those systems, greatly 
improves the final product and inevitably saves the taxpayer 
money. Yet in 2003, the FAA began to eliminate PASS' 
involvement, and PASS has not been a participant in developing 
and implementing any of the FAA's modernization projects for 
several years now. PASS believes the FAA must reconsider its 
exclusionary approach to modernization and once again involve 
the employees, who will ultimately play a large part in any 
modernization effort.
    In addition, there must be a sufficient number of trained 
FAA technicians in place to maintain the NAS today and into the 
future. Since the FAA does not have a staffing model to 
accurately determine the number of technicians needed to meet 
the agency's mission, PASS is requesting that Congress require 
a study of FAA technician training and the methods used by the 
FAA to determine technician staffing needs.
    The FAA is nonetheless moving forward with plans to 
modernize the NAS without input from FAA technicians. Recent 
issues associated with the implementation of the FAA 
telecommunications infrastructure, FTI, highlight the problems 
that develop when stakeholders are not involved. A few years 
ago, PASS' liaison was removed from the FTI project and PASS 
was informed that its support was no longer needed. Since that 
time, the costs for the program have escalated, the expected 
benefits have deteriorated and there have been numerous 
problems with implementation, leading to several outages across 
the Country.
    Implementation problems could have been avoided or reduced 
had PASS been involved in the development and implementation of 
the system. Development of additional NextGen systems must 
include stakeholder participation, especially FAA technicians 
who are intimately aware of every aspect of the NAS and how 
each system affects every other system.
    In addition, the agency's reauthorization proposal includes 
provisions that would outsource key components of the NAS, such 
as ADS-B, which I believe is as much a part of the 
Administration's privatization effort as it is the 
modernization effort with the NAS. To introduce concepts that 
would hinder or abandon the work performed by the dedicated 
professionals that are already in place would be to risk the 
foundation that keeps this Country's aviation system safe. PASS 
is very concerned that the Administration's desire to privatize 
the NAS and related services overwhelms any thought of the true 
implications of such an action.
    PASS firmly believes that providing a safe and secure NAS 
is an obligation that must remain with the Federal Government. 
The danger of placing the world's busiest, most complex and yet 
safest air traffic control system into the hands of private 
contractors is too great a risk. The safety of the flying 
public should never be sold to the lowest bidder under any 
circumstance.
    Thank you, and I would be happy to answer any questions 
that you have.
    Mr. Costello. Thank you, Mr. Brantley.
    The Chair now recognizes Mr. Romanowski.
    Mr. Romanowski. Thank you, Chairman Costello, Chairman 
Oberstar, Representative Petri.
    On behalf of the nearly 300 member companies of AIA and the 
635,000 high-skilled, high-wage workers they employ, I would 
like to thank you for allowing me to testify on the critical 
issues related to modernizing our aviation infrastructure.
    I would also like to thank the Subcommittee for its 
leadership on modernization issues, particularly the 
establishment of the JPDO and the integrated NextGen process. 
We remain a strong supporter of both JPDO and NextGen, and the 
comments I offer here are intended to help strengthen JPDO so 
that NextGen can become a reality.
    We have heard this morning that we all agree on the need 
for modernization and the importance of aviation to our 
Nation's economy. However, despite the pressing need, we 
question whether we are really adequately prepared to meet the 
challenge of implementing this system. The consequences are 
high. The JPDO has estimated that the cost of not implementing 
NextGen will be over $20 billion per year by 2015 and over $50 
billion per year by 2025. That is just the effect on commercial 
aviation. That doesn't include other areas.
    Now, looking across the JPDO enterprise, we see several 
areas of concern that place NextGen development and 
implementation at risk. First, I would like to say that we 
applaud Mr. Leader and the moves he is making on reorganization 
and refocusing its working groups on implementation. Those are 
moves in the right direction, and there is progress being made 
with improving the engagement with industry. And more work 
there remains to be done and we are going to support him as he 
moves forward.
    But on the Government side, we do see systemic issues that 
will require immediate attention and resolution. Taking these 
from a high level, we see across the agencies a lack of 
urgency. We also see a lack of accountability by the agencies 
for their NextGen responsibilities.
    And finally, we see a lack of program integration across 
the agencies and a need to strengthen the JPDO, particularly 
its program management and systems engineering disciplines. 
These are all clearly illustrated by the R&D gap that Dr. 
Dillingham and Mr. Scovel talked about earlier that exist 
between FAA and NASA. This is an issue we believe needs to be 
addressed immediately if NextGen is going to succeed. We 
believe it is going to take strong Congressional leadership to 
resolve those issues.
    It is estimated that NextGen development and implementation 
is going to require at least $1 billion per year. 
Unfortunately, the Administration's budget request fails to 
make that level of investment. For example, the FAA's 2008 
request only increases funding for NextGen at 3 percent or $36 
million. We are losing time. Mr. Sturgell stated in his 
testimony that by 2015, the system will not be able to handle 
the traffic that will exist.
    Given the time required to conduct research, validate and 
prototype concepts, create new rules and procedures, certify 
systems and incorporate the necessary upgrades into our 
infrastructure and the operational fleet, we believe it is 
critical that we really jump start NextGen now. We need to be 
more aggressive, taking advantage of the capabilities that are 
already in aircraft, and we need to ensure that we are prepared 
to certify the new systems.
    This highlights the importance of the Aviation Safety 
Organization in FAA. That is an organization that is currently 
already resource constrained. But the new regulations, policies 
and certification approvals that are going to be required for 
NextGen are going to be needed to be done at that organization. 
Those are front-loaded activities and we need to ensure the FAA 
applies sufficient resources to achieve the necessary results 
in that area.
    However, developing new policies and certifying new systems 
depends on having done adequate research. This is an incredible 
concern for us. The concepts of operations that Mr. Leader is 
talking about calls out 167 research questions and 77 policy 
issues that have to be addressed to implement NextGen. With the 
research gap that exists between FAA and NASA, we question how 
those are going to be resolved. That research gap should not 
exist. Congress provided NASA an additional $166 million above 
their request for 2007. We believe that money needs to be 
applied now to transitional research for NextGen to close that 
gap now.
    Now, if we look across the accountability and authority of 
JPDO and the agencies, additional work needs to be done there. 
We believe Vision 100 and the national aeronautics policy that 
President Bush recently signed gives them the authority to 
develop and implement the plan. But that requires the agencies 
to do their part. The agencies' commitment must be 
strengthened. They need to be held accountable to the 
integrated work plan and strong Congressional oversight is 
going to be required to make sure that occurs.
    We also call out additional recommendations to strengthen 
the accountability and performance within the JPDO, including 
fully funding the JPDO and improving the resources it has at 
its disposal.
    With that, I will conclude my testimony and welcome any 
questions you have. Thank you.
    Mr. Costello. Thank you very much.
    Mr. Bunce, you indicated in your testimony, both in your 
testimony today and in your written testimony that I read last 
evening that you think that the JPDO director, instead of 
reporting and having accountability both to the COO and the 
Administrator, that it might be best to have the director 
report directly to the FAA Administrator. Do you want to 
elaborate on that?
    Mr. Bunce. Yes, Mr. Chairman. We in industry want to see 
Charlie succeed. We have great stakes in making sure that he 
can be the boss of his organization and that he can provide 
advice at the right level. If he reports directly to the FAA 
Administrator and is a member of basically the acquisition arm 
that the FAA has, then there is a connect between JPDO and the 
OEP, so that they can take this vision and bring it to reality 
when they go and acquire systems.
    So by making the head of the JPDO report directly to the 
FAA Administrator and putting him on this JRC, there is a 
capability to raise that position and stature within the FAA to 
be able to try to leverage all these different systems that 
they are bringing on board. Also, the head of the JPDO needs to 
be an advisor to the Secretary of Transportation. When you look 
at the time frame between the last time that Mr. Mineta had all 
the principals together for all the different agencies, the 
time that has elapsed, basically two budget cycles have gone by 
where we have missed opportunities to put funding in budgets of 
other agencies to be able to further this NextGen along.
    So we think that raising the stature of the head of the 
JPDO becomes very, very important.
    Mr. Costello. We are going to hear the bells go off in just 
a few minutes. We have four votes on the Floor coming up. So I 
am going to ask some questions very quickly and call on Mr. 
Petri.
    Let me just ask you, Mr. Bunce, in your testimony you 
indicate, and I am quoting, that you strongly encourage 
Congress to both push the JPDO, FAA and DOT and other 
governmental participating agencies and on and on, to clearly 
define what they intend to build, how they intend to build it, 
a comprehensive plan. You have heard the testimony this morning 
that by the end of July that we are going to have a 
comprehensive plan and I guess I would just ask you, based upon 
your experience in dealing with NextGen, do you have confidence 
that that plan, that we are near the time at the end of July 
where we are actually going to have a plan that lays it out?
    Mr. Bunce. Sir, I think it is an iterative process. I think 
that we are going to have a clearer concept, a clearer vision. 
And as we go and put this enterprise architecture together, it 
will give more and more clues as to where we eventually want to 
go.
    Industry provided the FAA with clear concerns about ADS-B. 
And really, we are not going to have a notice of proposed 
rulemaking right now out until they say September. But in that 
it is very important. If we don't come out with separation 
criteria for ADS-B that is at least as good as what we have 
today, people are going to start scratching their heads. We 
know that what is going to come out in June and July isn't 
really the NPRM. That is the technical part.
    When we look to industry and we say, a plan is something we 
can build to, and that is really our point. Industry needs to 
be able to build this infrastructure, and until we get the 
design specifications and know what some of these augmentation 
signal requirements are for the GPS to be able to really have a 
precise position, to know what kind of separation criteria is 
out there, we have a hard time being able to go and figure out 
how industry is going to be incentivized to want to go forward 
and build this quickly before we know how much demand is going 
to be out there.
    So all of these things are very important to fit together.
    Mr. Costello. Thank you.
    Mr. Brantley, you state in your testimony that the FAA 
adopted a position of banning PASS from the modernization 
project. You heard the testimony earlier of the FAA saying that 
they thought that they gave plenty of input, both to NATCA and 
to the technicians. I just want you to elaborate on your 
statement that their position was to ban PASS from the 
modernization project.
    Mr. Brantley. Certainly. Thank you, Mr. Chairman.
    I believe the question was answered very artfully earlier. 
What I would offer is that the agency can direct an employee, 
order them to be part of a work group that is working on 
something that has to do with modernization as an assignment of 
work. Now, as an employee, they are not as free to raise issues 
or even to pursue them after they are raised as they are if 
they do it on behalf of the union.
    Quite frankly, they are protected when they do it on behalf 
of the union. If they do it as an FAA employee, they fall into 
the greater than 60 percent of FAA employees who are afraid to 
speak up when they see a problem, because they fear 
retaliation.
    So as a general culture, FAA employees don't speak up, if 
they can avoid it. So I am not surprised that they have chosen 
to go this route, because if you don't find problems, then you 
are not hindered with having to correct them.
    Mr. Costello. You also mention in your testimony that 
several recent high visibility outages have called into 
question the FAA's focus on maintaining the current system. I 
would ask you to elaborate on that.
    Mr. Brantley. Certainly. There have been several throughout 
the last year. Los Angeles, Chicago had a problem earlier. And 
what they had to do with is, the people that are installing the 
FTI system, and there are very different, many different 
companies across the Country, because Harris has outsourced 
much of that, so the vendors are probably too many to even 
mention. But they are not intimately familiar with the 
equipment that the telecommunications infrastructure is 
designed to feed. So many times they will, whether it is turn a 
system off inadvertently or when they bring the FTI online, it 
is not lined up properly, so the communications don't go where 
they should.
    It is just something that the FAA is relying on the vendor 
to do, that they are frankly not capable of.
    Mr. Costello. You mentioned outsourcing. Since the 
certification cannot be outsourced, you indicate in your 
testimony that the FAA has been very creative in trying to 
circumvent the system, would you elaborate on that?
    Mr. Brantley. Yes, sir, Mr. Chairman. One of the things 
that we have seen and heard from the FAA in the last couple of 
years is that they are trying to reduce the amount of 
certification they do. Where today they certify the systems, 
the services, and in many cases the pieces of equipment, 
depending on the criticality, and each of those must be 
certified before it can be put into the overall system and be 
used to control air traffic.
    Because legal determinations have been made that won't 
allow the certification to be outsourced, it is considered 
inherently governmental, the agency has come to the conclusion 
that just not doing the certification would clear that 
roadblock. So they want to dramatically scale back the amount 
and type of certifications that are done. And initially they 
want to go to strictly a service certification, without any 
equipment certified at all, which again, being done the way 
they are planning is going to create a lot of problems. It is 
going to end up putting us in a position where systems are put 
into the NAS that aren't ready, and outages are going to occur, 
people will be pointing fingers, no one will know what is going 
on and the travelers are going to be sitting in the terminal 
wondering what is going on.
    Mr. Costello. Thank you.
    The Chair recognizes the Ranking Member.
    Mr. Petri. Thank you, Mr. Chairman. I just have one 
question, given the time constraints. I would like to ask Mr. 
Brantley, and really, all the members of the panel, in your 
judgment, does the Joint Planning and Development Office have 
the necessary resources and authority to carry out NextGen? If 
not, what changes should we be making to make sure that they 
do?
    Mr. Brantley. Mr. Petri, I think it is hard for me to say 
exactly, because, without being involved in modernization any 
more than reading about it in the newspaper, and what we hear 
at the water cooler, it is hard to make a real call on that. 
But from everything I hear and read, I would say that they are 
struggling with having the autonomy and the overall buy-in. 
Until that is nailed down, whatever they come up with is going 
to be tough to implement, unless each agency is really stepping 
up to the plate and are a part of it, and that they have the 
autonomy to do their job without anyone overly controlling 
them.
    I think those are probably the biggest issues.
    Mr. Bunce. Sir, I would just like to add, and be a little 
more frank here, the head of the JPDO has two engineers that 
work for him right now, has about six direct reports. So he is 
having challenges just having the technical expertise that he 
can reach down and touch and lead an organization to be able to 
implement NextGen. This is a huge endeavor. We have to give the 
head of the JPDO the tools to be able to go ahead and execute. 
Unless he has people that work directly for him, you know, when 
the military assigns people across departments, you can have an 
Air Force guy working for a Navy guy. When the Navy person is 
who that person is reporting to, he writes the report. And why 
these different agencies can't send quality people over to work 
in the JPDO, not to say that there aren't, but send their best 
people over, because this is very important, and have them 
report directly to the head of the JPDO is something I don't 
understand.
    Mr. Romanowski. I would like to add to what Pete has been 
saying here. JPDO right now, as he said, very few of the people 
actually work for Charlie Leader. We believe that he needs to 
have direct performance input into those people. But also, if 
you look across the agencies, it is very difficult to say who 
is responsible in those agencies for NextGen. And one of the 
things that we think is very important is that somebody be 
named in each of those agencies that has NextGen 
accountability. DOD is apparently moving down an approach to 
name an overall NextGen program manager or program director at 
DOD. We think that ought to be applying to all the partner 
agencies at DOD, and that person should be tied in and working 
for Charlie Leader as a direct report as well, so that we can 
ensure that there is clear flow-down of need, of funding, of 
resources through the agencies, and that the agencies also have 
appropriate feedback into the overall integrated plan.
    One of the key things that we are very concerned about is 
that, as the integrated plan develops, will that plan really 
reflect the capabilities and resources available at the 
agencies or are there gaps that are going to be there. That has 
to be fed back into the overall plan, the actual performance to 
the plan, so that we can make adjustments as necessary, the 
funding is actually applied where it needs to be, and the like. 
The same thing goes for an engagement with the industry, that 
the feedback that comes from the industry in terms of 
implementation and requirements generation gets fed back into 
the overall plan.
    So right now, I think JPDO probably has authority given to 
it. If you look at the statutes in the President's policy, it 
has the authority to do what it needs to do. But we need to 
really step up the oversight and accountability. That starts 
with MOUs, making sure that those are not just, I think Mr. 
Leader testified that they were symbolic to the Science 
Committee last month. Those need to be real, meaningful MOUs 
that really call out clearly what the agencies are going to do 
with the resources that they are going to provide. And then 
moving down into the other areas.
    Mr. Costello. We thank you very much. We have less than 
four minutes to get over to the Floor, so I would let our 
witnesses know that we have some written questions that we 
would like to submit to you and ask you to answer them for the 
record.
    We thank you for your testimony today and look forward to 
continuing to work with you. Just as a side note to Mr. Bunce 
and Dr. Romanowski, I can tell you that we have had these 
conversations and I agree with you that JPDO, without question, 
has the authority that it needs, but it needs to be 
restructured and needs to be defined. And the people who work 
there need to report to one person. We will have further 
discussions about that.
    We appreciate your testimony and this concludes our 
hearing.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    









</pre></body></html>
